<html>
<title> - PRISON RADICALIZATION: ARE TERRORIST CELLS FORMING IN U.S. CELL BLOCKS?</title>
<body><pre>[Senate Hearing 109-954]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-954
 
         PRISON RADICALIZATION: ARE TERRORIST CELLS FORMING 
                       IN U.S. CELL BLOCKS?
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 19, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE

30-597 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                    Jennifer C. Boone, FBI Detailee
                        David K. Porter, Counsel
                      Melvin D. Albritton, Counsel
             Michael L. Alexander, Minority Staff Director
          Eric P. Andersen, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Carper...............................................     3
Prepared statement:
    Senator Lieberman............................................    35

                               WITNESSES
                      Tuesday, September 19, 2006

Frank J. Cilluffo, Associate Vice President for Homeland 
  Security, and Director, Homeland Security Policy Institute, The 
  George Washington University...................................     6
Gregory B. Saathoff, M.D., Executive Director, Critical Incident 
  Analysis Group, and Associate Professor of Rsearch, School of 
  Medicine, University of Virginia...............................     9
Daveed Gartenstein-Ross, Senior Consultant, Gerard Group 
  International, and Co-Chairman, Counterterrorism Foundation....    13
John M. Vanyur, Assistant Director, Correctional Programs 
  Division, Federal Bureau of Prisons, U.S. Department of Justice    22
Donald N. Van Duyn, Deputy Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigation, U.S. Department of 
  Justice........................................................    24
Javed Ali, Senior Intelligence Officer, Office of Intelligence 
  and Analysis, U.S. Department of Homeland Security.............    27

                     Alphabetical List of Witnesses

Ali, Javed:
    Testimony....................................................    27
    Prepared statement...........................................    79
Cilluffo, Frank J.:
    Testimony....................................................     6
    Prepared statement...........................................    37
Gartenstein-Ross, Daveed:
    Testimony....................................................    13
    Prepared statement...........................................    57
Saathoff, Gregory B., M.D.:
    Testimony....................................................     9
    Prepared statement...........................................    46
Van Duyn, Donald N.:
    Testimony....................................................    24
    Prepared statement...........................................    74
Vanyur, John M.:
    Testimony....................................................    22
    Prepared statement...........................................    66

                                APPENDIX

Excerpts from Islamic Guidelines for Individual and Social Reform    83
Out of the Shadows: Getting Ahead of Prisoner Radicalization.....    86
Responses to post-hearing questions for the Record from:
    Mr. Cilluffo.................................................   119
    Mr. Saathoff.................................................   123
    Mr. Gartenstein-Ross.........................................   128
    Mr. Vanyur...................................................   131
    Mr. Van Duyn.................................................   147
    Mr. Ali......................................................   157


PRISON RADICALIZATION: ARE TERRORIST CELLS FORMING IN U.S. CELL BLOCKS?

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    For the past 5 years, the Federal Government has attempted 
to prevent terrorists from entering our country from abroad. 
Our homeland security efforts have made it increasingly 
difficult for foreign terrorists to infiltrate and operate in 
the United States. Increased border security and screening of 
overseas airline passengers, while critical to help keep out 
foreign terrorists, do not, however, protect us from home-grown 
terrorists. The rise of domestic terrorist cells inspired by 
but not linked directly to al Qaeda is an emerging threat to 
our national security.
    This morning, the Committee will examine a deep pool of 
potential homegrown operatives, American prisons. Our 
corrections facilities, Federal, State, and local, provide 
fertile grounds for radicalization and recruitment efforts. We 
have seen this problem in the formation of such prison gangs as 
the Mexican mafia and the white supremacist group, the Aryan 
Brotherhood. And we see it in the focus of our hearing today, 
the spread in prison of an extremist form of Islam dedicated to 
committing acts of terrorism.
    Let me be clear. Our concern is not with prison inmates 
converting to Islam. For many converts, this religion brings 
the direction and purpose their lives previously lacked. Our 
concern is instead with those who would use prisons as places 
to indoctrinate inmates with a hateful ideology that incites 
adherents to commit violent acts.
    We need to learn more about the process of radicalization. 
For some inmates, the conversion to Islam sets their lives on a 
lasting path that shuns violence and criminality. What is it, 
then, that leads other inmates to adopt the extremist 
interpretation that teaches violence against those of different 
beliefs? How can prison authorities identify the teachings that 
incite violence while respecting the right of inmates to have 
access to religious materials? What training and skills do 
corrections officers need to be able to recognize 
radicalization and recruitment efforts?
    A current case demonstrates that these concerns are not 
hypothetical. Kevin James is an American citizen incarcerated 
in California for armed robbery. A convert to Islam in prison, 
this self-styled Imam founded an organization called JIS, the 
Arabic initials of the Assembly for Authentic Islam. Based upon 
his radical interpretation of Islam, Kevin James preached that 
it was the duty of JIS members to target his perceived enemies 
of Islam, including U.S. military personnel and Jewish and non-
Jewish supporters of Israel, for violent attacks. Kevin James 
recruited JIS members among his fellow inmates.
    One of Kevin James' radicalized converts, upon being 
released from prison, allegedly recruited other members at a 
Los Angeles area mosque. His group reportedly sought to acquire 
automatic weapons, firearms with silencers, and explosives. 
They conducted surveillance on military installations, 
synagogues, and the Israeli consulate. Allegedly, they financed 
their operations by committing at least 11 armed robberies 
throughout Southern California.
    Kevin James and his accomplices now face trial on terrorism 
charges. This terrorist plot was only uncovered when a JIS 
operative inadvertently dropped a cell phone at one of the 
crime scenes. The data retrieved from that phone allowed the 
FBI-led investigators to trace the crimes from the gang 
committing the robberies back to the prison and ultimately back 
to Kevin James. It was only then that prison officials learned 
the true nature of JIS and the scope of the conspiracy that had 
developed within the prison walls. We have to wonder how many 
other such conspiracies are taking shape under the radar in 
other prisons.
    During our first panel today, experts from the George 
Washington University and the University of Virginia will 
release a report by their Prisoner Radicalization Task Force. 
The report, titled ``Out of the Shadows: Getting Ahead of 
Prisoner Radicalization,''\1\ is one of the first to address 
religious radicalization in American prisons. I am pleased that 
we have the two chairmen of this task force with us today.
---------------------------------------------------------------------------
    \1\ The report appears in the Appendix on page 86.
---------------------------------------------------------------------------
    We will also have a witness who will give us the inside 
view based on his experience in working for an Islamic charity 
that has ties to terrorist groups and that has been listed as 
supporting terrorism financially. This individual will tell us 
about a prison literature program run by this charity.
    We will then look at the government's response to 
radicalization with a panel of Federal experts who will 
discuss, among other things, the Correctional Intelligence 
Initiative, a positive program at the Federal level. But we 
have to remember that most prisoners are held at the State 
level, not in Federal prisons.
    We will discuss with this panel the challenges that we 
face. For example, how can we, while preserving civil 
liberties, track released inmates identified as radicalized as 
they move from one jurisdiction to another? How can one State's 
corrections system, having identified a particular chaplain, 
volunteer, or inmate as a teacher who incites others to 
violence, effectively share that information with other systems 
should that clergy member move to another system or if an 
inmate be transferred to another prison?
    This is an issue with profound national security 
implications that reach into virtually every State and a great 
many cities throughout America. We must find a way to bring 
every level of government with a corrections system into a 
unified effort that addresses our national security while 
respecting the autonomy and authority of the individual 
jurisdictions.
    I would note that the criminal gang that sprang from Kevin 
James' teaching of violent jihad was centered in Torrance, 
California. Hence, the investigation that resulted was given 
the code name ``Torrancial Rain,'' a code name that well 
describes the storm of terrorism that could result if the 
radicalization of prison inmates goes unchecked.
    We are very pleased today to have the distinguished Senator 
from Delaware, Senator Carper, acting as the Ranking Minority 
Member at Senator Lieberman's request. Welcome, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. I said to Senator 
Lieberman, this is a little bit like Pee Wee Reese pinch-
hitting for Mickey Mantle. But I got up early this morning to 
catch the train and was driving to the train station this 
morning in Wilmington. I turned on NPR, and there you were.
    Chairman Collins. Really?
    Senator Carper. There you were, in living color. It is a 
pleasure to sit here and to pinch hit for Senator Lieberman.
    I had a busy weekend. You probably did, too. Among the 
folks I met with, I met with a number of people whose faith is 
Islam, and we talked about radicalization and how in my own 
faith, I am Protestant, but we have some people in our faith 
who have tried to hijack it in order to meet their own ends. We 
have seen Catholic priests abuse young people, but that doesn't 
make Catholicism bad or wrong, in the same way we have seen 
folks that have taken the major faith of Islam and tried to 
pervert it for their own means.
    I think as we start today's hearings, it is always 
important to remember that most of the people who are Muslim 
and whose faith is Islam are good. In this country, they are 
good, law-abiding citizens, and they really just want the same 
things that the rest of us want. So as we approach this 
hearing, I think it is important maybe just to remind us all of 
that.
    Having said that, I thank you for the chance to be here. We 
appreciate our witnesses coming today, and we look forward to 
their testimony as well.
    This is obviously an important and timely hearing as we 
commemorated just last week the fifth anniversary of the 
September 11 attacks and the loss of 3,000 people. Those 
attacks, as we know, were perpetrated by 19 hijackers who grew 
up and were indoctrinated with their radical views overseas. 
Last week, we had Secretary Chertoff before us and some 
homeland security experts who came by to testify, and some of 
the discussion focused on the threat of home-grown terrorism 
and whether the next terrorists who seek to do harm to us might 
actually come from within our own borders.
    While home-grown Islamic terrorism might not be as much of 
a threat here as it is in, say, Europe or some other places, we 
ignore the threat that does exist at our peril. We need to look 
no further than the experiences of our allies in Great Britain 
to see the danger we could be facing down the road or down the 
railroad track. I understand that many of those arrested this 
past summer in the plot to blow up planes on the way to the 
United States were British citizens. British citizens also 
played a role in the deadly transit attacks that took a number 
of lives in London last July.
    So I think it is important that we address what contributes 
to the spread of radical or violent views before we have major 
problems on our hands, as well.
    I was disturbed, as I am sure many of us were, as I 
prepared for this hearing to learn how extensive of a problem 
we may already have, at least in some communities within our 
country. Islamic radicalism and other extreme ideologies prey 
on the minds of the angry and the dispossessed. America's 
crowded prison systems are full of that type of person, 
unfortunately, and are probably the ideal place for someone 
with dangerous views to attract and foster new recruits. At 
least some people have figured that out.
    As a former governor who was once very much involved in our 
own corrections system in our State, I know that religion and 
other diversions, like job training, are an important part of 
keeping prisons safer and helping to ensure that when inmates 
are released, and most all of them will be, they come out of 
those prisons as better people, not as better criminals.
    In our prisons, Madam Chairman, we used to say that we seek 
to focus on a variety of inmates' needs--their educational 
needs, as many of them had little if any education, their 
substance abuse problems that they faced, their needs for job 
training so they would have a job skill when they walked out of 
there, working with them on life skills, just knowing that they 
had a schedule and had to get up in the morning and have 
breakfast and go to work and have people who expected something 
from them. We sought to meet their spiritual needs, as well. We 
tried to touch all of those bases before we let 95, 96, 97, 98 
percent of them go, to leave and to go back out into the 
community.
    I am certain that the vast majority of those who go to 
prisons to preach or to seek converts are good people quite 
literally doing the Lord's work. I know a number of them in my 
State, and you probably do, too, and that is certainly the case 
in most instances. I understand that the Federal Bureau of 
Prisons and other agencies have done some work aimed at keeping 
Islamic radicals out of the Federal prison system and 
attempting to ensure that extreme versions of the Qur'an and 
other writings don't make their way into the hands of 
impressionable prisoners, and that is good news. But the vast 
majority of prisoners at risk of being influenced by dangerous 
ideologies are serving their time in State or local 
institutions.
    I look forward to hearing from our witnesses today about 
steps that we need to take and steps that those who run our 
prisons need to take to prevent prison systems from becoming 
even more susceptible than they currently are to the spread of 
the kind of thinking that leads to tragedies like September 11.
    Thank you, Madam Chairman.
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Madam Chair. Thanks as well to our witnesses for being 
here today and for helping us shed some light on this important issue.
    This is a very timely hearing. Just last week, we commemorated the 
fifth anniversary of the September 11 attacks and the three thousand 
lives that were taken that day.
    Those attacks, as we all know, were perpetrated by 19 hijackers who 
grew up and were indoctrinated with their radical views overseas.
    Last week, we had Secretary Chertoff and some homeland security 
experts in to testify and some of the discussion focused on the threat 
of homegrown terrorism and whether the next terrorist who seeks to do 
us harm might come from our own shores.
    While homegrown Islamic terrorism might not be as much of a threat 
here as it is in Europe or elsewhere, we ignore the threat that does 
exist at our peril.
    We need look no further than the experiences of some of our allies 
to see the danger we could be facing down the road. I understand that 
many of those arrested in recent months in failed plots in Great 
Britain and Canada were actually British and Canadian citizens. 
Homegrown terrorists also played a role in the deadly transit attacks 
that took hundreds of lives in attacks in London and Madrid.
    It's important, then, that we address what contributes to the 
spread of radical or violent views before we have a major problem on 
our hands as well.
    I was disturbed as I prepared for this hearing to learn how 
extensive a problem we may already have, at least in some communities.
    Islamic radicalism and other extreme ideologies prey on the minds 
of the angry and the dispossessed. America's crowded prison systems are 
full of that type of person, unfortunately, and are probably the ideal 
place for someone with dangerous views to attract and foster new 
recruits. At least some people have figured that out.
    As a former governor who was once responsible for running my 
state's prison system, I know that religion and other diversions like 
job training are an important part of keeping prisons safer and helping 
ensure that inmates are better people once they get out. I'm certain 
that the vast majority of those who go to prisons to preach or seek 
converts are good people quite literally doing the Lord's work. That's 
certainly the case in Delaware.
    I understand that the Federal Bureau of Prisons and other agencies 
have done some work aimed at keeping Islamic radicals out of the 
federal prison system and ensuring that extreme versions of the Koran 
and other writing don't make their way into the hands of impressionable 
prisoners.
    That's good news, but the vast majority of prisoners at risk of 
being influenced by dangerous ideologies are serving their time in 
state or local institutions. I look forward to hearing from our 
witnesses today about steps we need to take and steps those who run our 
prisons need to take to prevent prison systems from becoming even more 
susceptible than they currently are to the spread of the kind of 
thinking that leads to tragedies like September 11.

    Chairman Collins. Thank you, Senator.
    I would now like to introduce the witnesses on our first 
panel. We are very pleased to have each of you here today.
    Our first witness, Frank Cilluffo, is the Associate Vice 
President for Homeland Security and Director of the Homeland 
Security Policy Institute at the George Washington University. 
He currently serves as the Co-Chair of the Prisoner 
Radicalization Task Force, which as I mentioned was jointly 
sponsored by George Washington and the University of Virginia's 
Critical Incident Analysis Group. Mr. Cilluffo joined GW from 
the White House, where he served as Special Assistant to the 
President for Homeland Security.
    Our second witness, Dr. Gregory Saathoff, serves as the 
Executive Director of the Critical Incident Analysis Group and 
is an associate professor at the University of Virginia. He 
currently serves as the other Co-Chair with Mr. Cilluffo of the 
Prisoner Radicalization Task Force. He is also on the Research 
Advisory Board for the FBI's National Center for the Analysis 
of Violent Crime. Over the past 15 years, he has provided 
psychiatric consultations to inmates in more than 10 Federal 
and State prisons in the United States.
    Our final witness on this panel, Daveed Gartenstein-Ross, 
is the Senior Consultant for the Gerard Group International and 
Co-Chair of the Counterterrorism Foundation. He converted to 
Islam in his early 20s and eventually went to work for the head 
U.S. office of the Al Haramain Islamic Foundation, a group 
later designated by the U.S. Government as a financier of 
terrorism.
    I welcome all of you here today. We very much appreciate 
sharing your expertise, and Mr. Cilluffo, we will start with 
you.

TESTIMONY OF FRANK J. CILLUFFO,\1\ ASSOCIATE VICE PRESIDENT FOR 
   HOMELAND SECURITY, AND DIRECTOR, HOMELAND SECURITY POLICY 
          INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Cilluffo. Madam Chairman, Senator Carper, thank you for 
the opportunity to testify before you today. Your initiative in 
pushing to the fore the issue of prison radicalization is 
crucial. Proactive consideration of this challenge and a 
carefully calibrated response will place the United States 
ahead of the curve and bolster national security. We simply 
cannot wait until we are faced with the need to manage a 
crisis.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cilluffo appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    In today's context, radicalization is ``the process by 
which inmates adopt extreme views, including beliefs that 
violent measures need to be taken for political or religious 
purposes.'' This is a subset of a more general phenomenon of 
radicalization that has manifested itself in a series of 
terrorist attacks and activities, including the bombings in 
Madrid, in London, as well as the thwarted terrorist activities 
in Canada earlier this year.
    The larger terrorist threat is the tapestry by which 
prisoner radicalization must be studied, but that fabric is 
ever changing. Al Qaeda in its classic form is now a degraded 
entity, with many of its remaining key figures on the run. 
However, it has franchised itself across the globe with its 
franchises prepared to act locally and largely independently, 
in effect, a network of networks. We have also seen the 
emergence of a leaderless movement, marked significantly by 
self-enlistment and taking its inspiration from al Qaeda 
classic to join the global Salafi jihad.
    The Internet has fueled this development, building in 
essence a virtual umma, wherein chat rooms have replaced the 
smoke-filled bars of le Carre novels. Ironically, it is when 
home-grown groups attempt to reach out to al Qaeda that they 
have been caught in key instances. Fortunately, these groups 
have not yet attained a higher level of competence.
    Whether beyond prison walls or inside them, it is essential 
to better understand the life cycle of a terrorist, 
specifically, the process by which an individual becomes 
motivated to listen to radical ideas, read about them, enlist 
oneself or respond to terrorist recruiting efforts, and 
ultimately act upon those ideas. This transition from 
sympathizer to activist will be addressed in greater detail by 
my colleague, Dr. Saathoff.
    Prison radicalization is not a new threat. To the contrary, 
prisons have always been an incubator for radical ideas, in 
part because there is a captive audience. Recall that Hitler 
wrote Mein Kampf while in prison, and Stalin while himself 
incarcerated recruited inmates to power the Bolshevik 
Revolution. The founder of Arkan's Tigers, who took part in the 
ethnic cleansing of Bosnia in the 1990s, was just a petty 
criminal until he spent time in Western Europe prisons. The 
spiritual philosopher of al Qaeda, Sayyid Qutb, wrote the 
radical Islamist manifesto Milestones Along the Road while in 
an Egyptian prison. Al-Zarqawi, initially merely a petty 
criminal, rose to leadership while imprisoned in Jordan.
    Of course, religious radicalization is not unique to Islam 
and remains the exception rather than the rule, irrespective of 
the faith at issue.
    Five months ago, GW's Homeland Security Policy Institute 
and UVA's Critical Incident Analysis Group convened a dedicated 
all-volunteer task force encompassing a variety of subject 
matter experts to do a deep dive into this issue, some of whom 
are here today--Abdullah Ansary, Steve Herrick, Thurgood 
Marshall, Jr., and all of whom should be thanked for their time 
and insights. Our goal was to examine radicalization in prisons 
from a multi-dimensional perspective rather than studying the 
issue through a single lens or solely from a law enforcement or 
intelligence perspective.
    During the course of our work, we heard from imams and 
chaplains and brought together officials at all levels of 
government with scholars of religion and behavioral science 
experts. The aim was to integrate insights from each of these 
professions and recast their distinct lenses on this issue as a 
prism. Our study led us to conclude that an objective risk 
assessment is urgently needed in order to better understand the 
nature of the threat. Although we have snippets of data, we 
still don't have a sense of how these various pixels fit 
together as a mosaic in the big picture. Simply put, we don't 
know what we don't know.
    We urge you to establish a multidisciplinary commission to 
investigate this issue in depth and to advance our 
understanding of the nature of the threat and lay the 
groundwork for effective and proactive prevention and response 
measures.
    To date, select cases from the well known, such as Richard 
Reid and the New Folsum Prison case and Sheik Rahman, to the 
lesser known, such as El Rukn or the extremist Christian group 
Covenant, Sword, and Arm of the Lord, have revealed connections 
between former prisoners and terrorism. Each held the potential 
to be a high-consequence event, and authorities have attested 
that these cases would appear to be just the tip of the 
iceberg, though they cannot discuss ongoing investigations 
publicly in great detail.
    The potential scope of our challenge is considerable. 
America's prison population is the world's largest, at over 2 
million. Our incarceration rate is the world's highest. Ninety-
three percent of U.S. inmates are in State and local prisons 
and jails. The figures for California alone are staggering. 
Facilities are hugely overcrowded, operating at 200 percent 
capacity. Wardens understandably have their hands full dealing 
with day-to-day operations and safety issues alone. And 
prisoners with radical Islamic religious views often conduct 
themselves as model prisoners, so wardens and other prison 
staff who are already overburdened may have little incentive to 
focus on these inmates.
    Despite such overstretch, California officials have 
demonstrated an impressive level of resolve and commitment to 
countering prisoner radicalization. Arizona and New York also 
have been forward-leaning in their approach. However, even in 
these proactive jurisdictions, publicized successes may be due 
in no small part to luck, as you mentioned earlier, Madam 
Chairman.
    In short, strides have been made, but disconnects remain. 
Crucially, local information has yet to fully find its way into 
regional and national intelligence processes and networks, and 
strategic analysis is not yet fused with investigatory efforts. 
The old adage, do you string them up or do you string them 
along, still has not been 100 percent resolved.
    Complicating the matter, there is currently no database, as 
you mentioned, Madam Chairman, to track inmates after release 
or to identify inmates associated with radical groups and no 
comprehensive database exists to track religious service 
providers who are known to expose inmates to radical religious 
rhetoric.
    Compounding the threat by Islamic radicalization is the 
established presence of violent gangs and extremist Christian 
groups in prisons. Some of these groups have found common cause 
with extremist Muslim groups who share their hostility toward 
the U.S. Government and Israel, the enemy of my enemy is my 
friend effect.
    It should go without saying that religion may have a 
tremendously constructive impact upon inmates, imbuing them 
with a sense of discipline and purpose, among other things. 
Prisoners have a legal right to practice their religion, and 
prisons are legally bound to provide for inmate worship. 
Unfortunately, a shortage of suitably qualified Muslim 
religious service providers has opened the door to under-
qualified and radical chaplains to enter prisons. In fact, 
prisoners often take on this role themselves. Their converts 
may in large part have had no prior exposure to Islam and have 
no means to put the radical message into context. The only 
version some may ever learn is a cut-and-paste version of the 
Qur'an that incorporates violent prison gang culture, known as 
jailhouse Islam or Prislam.
    Currently, prayer leaders and religious service providers 
only require endorsement by local organizations, and there is 
no consistently applied standard or procedure to determine what 
reading material is appropriate to enter the prison system. 
Radical literature and extremist translations and 
interpretations of the Qur'an have been distributed to 
prisoners by groups suspected or known to support terrorism.
    The threat posed by prisoner radicalization does not end 
when inmates are paroled or released. Former inmates are 
vulnerable to radicalization and recruitment because many leave 
prison with very little financial or social support. By 
providing for prisoners in their time of greatest need, radical 
organizations can build upon the loyalty developed during the 
individual's time in prison, and this is an oft-used tactic by 
gangs and white supremacist groups.
    The challenge of prison radicalization is by no means 
unique to the United States. The problem is a global one, and 
moving forward information sharing between and among the United 
States and other countries will be crucial. Others' experience 
offers us an opportunity to stay ahead of the curve by 
learning, adapting, and applying the lessons of what has worked 
elsewhere and what has not.
    Moving forward, the most fundamental imperative in my view 
as well as that of the task force is for Congress to establish 
a commission to investigate this issue in depth. Only then will 
we better understand the full breadth and depth of the threat 
and hence respond accordingly and better prioritize our 
resources. All relevant perspectives must feed into this 
endeavor. No one profession alone is equipped to analyze and 
recommend change. And throughout, the practice of religion 
should be given fulsome consideration and weight while means of 
preventing the spread of radical ideology in a religious 
context are studied.
    We would urge that the commission accord the following core 
issues priority status: Information sharing between and among 
agencies at all levels of government involved in managing 
inmates and monitoring radical groups; steps to ensure the 
legitimacy of Islamic endorsing agencies so as to ensure a 
reliable and effective process of providing religious services 
to Muslim inmates; steps to effectively reintegrate former 
inmates into the larger society; development of a comprehensive 
strategy to counter radicalization, drawing upon the lessons 
that can be learned and adapted from other efforts to combat 
gangs and right-wing extremists in prisons; and the evaluation 
of existing prison programs from all levels of government and 
internationally designed to prevent radicalization and 
recruitment or to disrupt radical groups. Knowledge must be 
translated into action across the board. Awareness, education, 
and training programs must be developed for personnel who work 
in prison, probation, and parole settings.
    Finally, broader avenues of dialogue with the Muslim 
community should be identified and pursued to foster mutual 
respect and understanding and ultimately trust. To confine the 
discussion to issues of terrorism alone is bound to encourage a 
defensive posture and impede constructive dialogue.
    Prison radicalization is but one subset of the battle of 
ideas, and it is only by challenging ideas with ideas, both 
within and beyond prison walls, that hearts and minds may 
ultimately be changed and radical ideas moderated.
    Thank you, Madam Chairman, and I am sorry for going a 
couple seconds overtime.
    Chairman Collins. Thank you very much for excellent 
testimony. Dr. Saathoff.

TESTIMONY OF GREGORY B. SAATHOFF, M.D.,\1\ EXECUTIVE DIRECTOR, 
 CRITICAL INCIDENT ANALYSIS GROUP, AND ASSOCIATE PROFESSOR OF 
      RESEARCH, SCHOOL OF MEDICINE, UNIVERSITY OF VIRGINIA

    Dr. Saathoff. Chairman Collins, Senator Carper, and the 
staff members of the Senate Committee on Homeland Security and 
Governmental Affairs, I would like to thank you for inviting me 
to testify before you today on this subject of national 
importance. It has been a privilege to serve as Co-Chair with 
Mr. Cilluffo on the Prisoner Radicalization Task Force that has 
released its report today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Saathoff appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    Throughout the last decade, I have assisted in the 
coordination of briefings between behavioral science experts in 
the FBI and an international group of religion scholars 
associated with the American Academy of Religions. During the 
last 15 years, as a member of the faculty of the University of 
Virginia's School of Medicine, I have provided consultation in 
more than 10 State prisons, Federal prisons, and jails. Through 
this work, I have had an opportunity to witness the importance 
of the media, the power of social networks, the changing role 
of information technology, and the often vital role that 
religion plays in rehabilitation, if not redemption.
    In my brief remarks today, I will speak to the issue of 
radicalization from a behavioral science perspective.
    While the Federal prison system has made great strides in 
addressing the issues of religious radicalization and 
recruitment within prisons, our level of awareness and 
understanding is still quite limited, particularly at the level 
of the State prisons, community corrections, and local jails. 
Research on the characteristics of terrorist recruits abroad 
has identified youth, unemployment, alienation, a need for a 
sense of self-importance, and a need to belong to a group as 
common factors, all of which are present among U.S. prison 
populations.
    The landscape of prison life has also changed dramatically 
in that the 24-hour news cycle available within prisons acts as 
a force multiplier. Now, why is this important? Behavior is 
contagious, whether it occurs in exuberant fans crowding onto a 
sports field after a victory or angry inmates who riot within a 
facility.
    I learned this myself when I was called to see an inmate 
who had set his cell on fire. It was only after I treated him 
that I realized that the image of a raging fire on television 
had provoked him to torch his cell.
    This can also occur on a macro level. Two days after the 
World Trade Center attack, I consulted to a prison that I 
thought I knew well. Anxious inmates informed me that the 
televised images of the September 11 attack were cause for 
celebration among many of the inmates. In fact, they estimated 
that perhaps a third of the inmates praised the attacks, and 
their cheers could be heard in cellblock after cellblock. I 
would like to emphasize that the cheering inmates shared not a 
single religion, but a vulnerability to radicalization.
    Of course, access to radio and television can have a 
significant positive impact within prisons. However, one of the 
byproducts of our smaller, more information-connected world is 
the globalization of grievance. Images of distant conflicts are 
burned into the memories and identities of impressionable 
inmates. Television transmissions of bombings and group 
violence have immense power, and their impact within the prison 
environment cannot be overstated.
    When there has been little exposure to organized religion 
in the community, the inmates' understanding of religion is 
dependent upon the religious leadership and materials at their 
facilities, and this is complicated by the fact that the vast 
majority of inmates are located not in the Federal, but in the 
State prisons and local jails, 1.7 million inmates in a 
diverse, dispersed system, or set of systems, actually. Radical 
rhetoric may therefore exploit the inmates' vulnerabilities and 
lack of grounded religious knowledge by providing validation to 
the inmates' disillusionment with society and by creating an 
outlet for their violent impulses.
    Psychological factors that increase vulnerability include a 
high level of distress, cultural disillusionment, lack of 
intrinsic religious beliefs or values, dysfunctional family 
systems, and dependent personality tendencies. Inmates may also 
be drawn to radical groups out of the need for protection or to 
gain status among other prisoners.
    Occasionally, I am asked to describe the typical 
radicalized inmate. While it seems a reasonable question, I 
would suggest that focusing only on individual inmates is not 
an appropriate solution. In fact, terrorism is a team sport. 
Social bonding is not only the magnet, but also the glue that 
holds these groups together, rather than concepts like 
brainwashing that are simple, attractive, and wrong. The most 
effective terrorists are team players who play different 
positions on a radicalized field. Our overcrowded prisons 
provide an opportunity for a deep bench.
    Even more importantly, para-radicalization and recruitment 
occur in prison. In this exploitative environment, inmates, 
visitors, and even prison employees can be unwitting players 
who can be cajoled, bribed, or coerced into transmitting 
messages and materials without being aware of their real 
purpose.
    It is not enough to understand terrorism in prison by 
learning only about inmates. One must also have an 
understanding of those who visit and volunteer in prisons. 
Studies have suggested that terrorist recruitment methods are 
not always expected to yield a high number of recruits. Even if 
the radical message resonates with only a few inmates, they 
could then be targeted for more intense one-on-one instruction. 
The impact and destructive potential of a prison-directed 
terrorist cell is enormous.
    There is a difference between a radicalized prisoner who 
holds radical religious or political beliefs and a prisoner who 
has been recruited by a terrorist group and who has chosen to 
commit violence. An important resource for combatting terrorism 
might be to determine which factor or factors influence some 
radicalized prisoners to make that specific leap from radical 
beliefs to violence in the name of those beliefs.
    Because radical religious violence can occur within 
prisons, we have an obligation to inmate populations, 
certainly, but also to those who are charged with maintaining 
safe prisons. Just as we seek to protect our soldiers by 
providing them with the most up-to-date intelligence, we are 
also obligated to use our enhanced knowledge to safeguard the 
lives of our correctional officers. A compelling case can be 
made for a review of our prison system, particularly at the 
State and local levels.
    Chairman Collins, in order to defeat a networked opponent, 
our prisons need to be networked through information technology 
systems that are truly integrated.
    When serious symptoms present, it is tempting to try to 
reach for a treatment before we have a diagnosis. History 
reveals that government works best when it first shines light 
rather than heat upon concerns that involve religious questions 
and conflict. Government must be proactive. We must base our 
operations on real intelligence rather than gut reactions. 
Unless we understand the nature and extent of the problem of 
religious radicalization in prison, we are likely to first 
neglect it and then overreact in a way that unnecessarily 
antagonizes and polarizes our prison population.
    In addition to being an assault on civil liberties, an 
aggressive overreaction by government in the absence of good 
intelligence would lose hearts and minds to radicalization and 
recruitment, playing into the very hands of those who would 
want to subvert our system. Our briefings revealed that while 
the New Folsum plot in California was discovered in the 
community accidentally by virtue of a dropped cell phone, the 
response of the Joint Terrorism Task Force in Los Angeles was 
superb. Expecting, though, that a Joint Terrorism Task Force 
should be a primary force for dealing with this complex problem 
is like expecting emergency rooms to provide all medical care. 
Proactive, integrated, intelligence-sharing systems are 
critical to identify and connect the dots before they become 
plots.
    In my role as a consulting psychiatrist to prisons, I also 
teach the medical students who accompany me. Prison can be a 
humbling place where teachers once again find themselves to be 
students. I will never forget one of the first religious 
challenges that faced me in prison. A suicidal inmate was to be 
placed in a stripped cell without any possessions. As he was 
led from my office, he begged me to allow him to keep just one 
possession, his Bible. At such a time, it appeared obvious to 
me that this request could easily be granted, and without 
hesitation, I instructed the officer to give him his Bible. 
Before doing so, though, the officer flipped through the pages, 
reached into the Book of Revelations, and pulled out a razor 
blade. ``Doc,'' he said, ``do you want him to have this, too?'' 
The inmate smiled weakly and said, ``I guess I don't need my 
Bible after all.''
    Unfortunately, we are living in more complex times. An 
officer who can easily identify and remove a razor blade from a 
Bible will most likely not be able to identify the razors of 
radicalization, such as jihadist material that advocates 
violent measures against innocent civilians, gangs who are 
willing to masquerade their violence as religion, and 
radicalized individuals who are willing to take the last step 
toward terrorism.
    In closing, I would like to recognize the Committee and 
staff for their professionalism and the School of Medicine at 
the University of Virginia and its resources within the 
Critical Incident Analysis Group. I would also especially like 
to thank Frank Cilluffo and the Homeland Security Policy 
Institute at the George Washington University for their 
dedication to this process, and, of course, the task force 
members.
    I would like to extend to you an open offer to continue to 
work closely with them, thank you, and I would be pleased to 
try to answer any questions you may have.
    Chairman Collins. Thank you, Doctor. We very much 
appreciate your testimony and your offer to continue to work 
with the Committee as we pursue this issue.
    Chairman Collins. Mr. Gartenstein-Ross.

TESTIMONY OF DAVEED GARTENSTEIN-ROSS,\1\ SENIOR CONSULTANT, THE 
       GERARD GROUP INTERNATIONAL, AND CO-CHAIRMAN, THE 
                  COUNTERTERRORISM FOUNDATION

    Mr. Gartenstein-Ross. Chairman Collins and Senator Carper, 
thank you for inviting me to testify before you today. The 
Committee is to be commended for tackling an important issue 
like prison radicalization.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gartenstein-Ross appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    In this testimony, I will provide an inside look at how 
access to the prison system can be used and exploited by an 
Islamic charity, radical in orientation, that is intent on 
fostering its vision for the faith. The core of this testimony 
is based on my time working for the Al Haramain Islamic 
Foundation, which was an international charity devoted to 
Wahhabism, the austere form of Islam that originated in what is 
now Saudi Arabia. While I now work in counterterrorism, I 
entered the field in an idiosyncratic manner. My introduction 
came as an employee of a radical Islamic charity that is now 
designated as a sponsor of terrorism by the Treasury 
Department.
    I grew up in Ashland, a small town in Southern Oregon. As 
my name suggests, both of my parents are from Jewish 
backgrounds, but they weren't happy with traditional Judaism, 
so they encouraged me to find my own spiritual path. I found 
this spiritual path in college when I converted to Islam. My 
first job after college was with the U.S. headquarters of the 
Al Haramain Islamic Foundation, which happened to be located in 
my hometown.
    I worked for Al Haramain from December 1998 until August 
1999. I had a number of responsibilities during this time, but 
the most directly relevant one is that I was responsible for 
overseeing the charity's prison dawa program, dawa being the 
Islamic form of evangelism. It was designed to educate U.S. 
prisoners in what Al Haramain considered to be true Islam.
    To cap off the story before getting to the specifics of the 
prison dawa program, I left the Islamic faith for Christianity 
prior to September 11, and by the time the FBI's investigation 
of Al Haramain kicked into high gear in February 2004, I was 
ready to assist the Bureau in investigating the charity 
organization. I write about the experience in a forthcoming 
book coming out in February 2007 called My Year Inside Radical 
Islam, copies of which have been provided to staff members of 
the Committee.
    At the outset, I would like to explore the Al Haramain 
Islamic Foundation's connections to international terrorism in 
order to demonstrate the charity's ideological orientation. The 
international Al Haramain organization was originally formed in 
Riyadh, Saudi Arabia, in 1992. At the time I worked for the 
group, it had offices in more than 50 countries and an annual 
budget of $40 to $50 million. Today, however, Al Haramain no 
longer exists as a separate entity. It was eventually merged, 
along with other charities, into the Saudi National Commission 
for Relief and Charity Work Abroad.
    Al Haramain's terrorist connections begin with the branch 
that I worked for in Ashland, Oregon. It was designated as a 
terrorist sponsor by the Treasury Department. Two of the 
directors of this group were indicted for their roles in a 
complicated money laundering scheme that Federal investigators 
believe funded the mujahideen of Chechnya.
    Beyond the branch I worked for, Al Haramain had a number of 
other connections to international terror. The U.S. Treasury 
has designated Al Haramain offices in Kenya, Tanzania, and the 
Comoros Islands as sponsors of terrorism for their role in the 
1998 embassy bombings in Kenya and Tanzania. The Treasury 
alleges that the attacks were funded by a wealthy Al Haramain 
official, that a former Al Haramain director helped prepare the 
advance party that planned the bombings, and that these offices 
were used as a staging area and exfiltration route for the 
perpetrators.
    Al Haramain's Indonesia office was also designated by 
Treasury. That office was reportedly a conduit for funds to 
Jemaah Islamiyah, the terrorist group responsible for the 
October 2002 Bali bombings, which killed 202 people, primarily 
foreign tourists.
    Other Al Haramain offices that were similarly designated by 
Treasury for connections to terror include the branches in 
Afghanistan, Albania, Bangladesh, Ethiopia, and Pakistan.
    Now, Al Haramain's international terror connections provide 
a backdrop for understanding its prison dawa program, for 
understanding both the radical literature that the group 
distributed and also the potential for the program to be used 
in far more nefarious ways than it was actually used. I turn 
first to the group's literature, which was undeniably radical. 
At the heart of any concerted Islamic literature program is 
distribution of the Qur'an. Al Haramain distributed a Wahhabi/
Salafi version known as the Noble Qur'an that was translated 
into English by Muhammad Taqi-ud-Din Al-Hilali and Muhammad 
Muhsin Khan. This version was known for containing numerous 
bracketed interpolations that were not present in the original 
Arabic script of the Qur'an. Although ostensibly designed to 
explain the verses, these interpolations, in fact, pushed the 
meaning in a radical direction, one which was suffused with 
contempt for non-Muslims and one which openly advocated the 
global jihad.
    One example of this occurs in an early footnote in the 
translation, which states, ``Al-Jihad (holy fighting) in 
Allah's Cause (with full force of numbers and weaponry) is 
given the utmost importance in Islam and is one of its pillars. 
By Jihad, Islam is established, Allah's word is made superior, 
and His Religion is propagated. By abandoning Jihad, Islam is 
destroyed and the Muslims fall into an inferior position; their 
honor is lost, their lands are stolen, their rule and authority 
vanish. Jihad is an obligatory duty in Islam on every Muslim, 
and he who tries to escape from this duty, or does not in his 
innermost heart wish to fulfill this duty, dies with one of the 
qualities of a hypocrite.''
    This passage thus rules out non-military interpretations of 
jihad by insisting that it occur with full force of numbers and 
weaponry, and it also endorses jihad as a means of propagating 
the Islamic faith, specifying that it is required of every 
Muslim.
    But most chilling in the translation of the Qur'an that Al 
Haramain distributed was a 22-page appendix. This appendix, 
written by former Saudi Arabian Chief Justice Abdullah bin 
Muhammad bin Humaid, was entitled ``The Call to Jihad in the 
Qur'an.'' The appendix was nothing less than an exhortation to 
violence. In it, bin Humaid argues at length that Muslims are 
obligated to wage war against non-Muslims who have not 
submitted to Islamic rule. He explains, ``Allah commanded the 
Muslims to fight against all the Mushrikun as well as against 
the people of the Scriptures (Jews and Christians) if they do 
not embrace Islam, until they pay the jizyah (a tax levied on 
the non-Muslims who do not embrace Islam and are under the 
protection of an Islamic government) with willing submission 
and feel themselves subdued.'' Mushrikun, referred to in this 
passage, is describing all non-believers who are not classified 
as the people of the scripture, i.e., those who are not 
Christians and Jews, and thus bin Humaid advocates war with the 
entire non-Muslim world. The appendix also appeals to the 
reader to join the jihad.
    Nor was the translation of the Qur'an the only piece of 
radical material that Al Haramain distributed to prisons. 
Another widely distributed volume was Muhammad bin Jamil Zino's 
Islamic Guidelines for Individual and Social Reform. Like the 
translation of the Qur'an that Al Haramain distributed, one of 
the themes of Zino's book was jihad. At one point, he instructs 
his readers that their children should be indoctrinated in the 
glories of jihad.
    Moreover, virulent anti-Semitism and hatred of non-Muslim 
governments were recurring themes in Al Haramain's literature. 
On a page headed, ``Act upon these Ahadith,'' the hadith being 
the sayings and traditions that were attributed to Prophet 
Muhammed, Zino's first injunction reads, ``The last hour will 
not appear unless the Muslims fight the Jews and kill them.''
    More sweepingly, Zino denounces belief in manmade 
destructive ideologies, such as secularism, as nullifying an 
individual's adherence to Islam. This is in keeping with the 
views of another writer whose works Al Haramain sent to 
prisons, Abu Ameenah Bilal Philips. In The Fundamentals of 
Tawheed, Philips describes acquiesence to non-Islamic rule as 
an act of idolatry and an act of disbelief.
    But beyond the literature, it is also important to 
understand the contours of the program that allowed this 
literature to reach the U.S. prison system. Prisoners would 
initiate contact with Al Haramain by writing to request Islamic 
literature. They might learn about us from their chaplains, 
through word of mouth, or through the name and address 
information that was stamped into the literature that Al 
Haramain distributed. Prisoners who wrote to Al Haramain would 
be sent a number of pamphlets and a questionnaire. The 
questionnaire asked a variety of informational questions, 
including inmates' names, prisoner numbers, release dates, and 
address outside of prison. It also included questions designed 
to determine the inmate's level of Islamic knowledge.
    It is what happened next with the questionnaires that 
caught investigators' interest during their investigation of Al 
Haramain. After we graded the questionnaires, all of the 
information--including the inmates' names, prisoner numbers, 
facilities they were held in, release dates, and the address 
they would be released to--was entered into a massive database 
containing 15,000 names. This database is significant because 
of the potential for terrorist recruitment. As the panel has 
already discussed, the prison population is ripe for terrorist 
recruiting, and the database hosted by Al Haramain was 
perfectly designed to allow follow-up with prisoners and 
potentially to allow for terrorist recruitment. Al Haramain 
could have established ongoing relationships with prisoners, 
and the database contained the critical information that would 
have allowed Al Haramain or ideologically sympathetic 
organizations to follow up with prisoners after they were 
released and to point them in a direction that these 
organizations considered to be convenient.
    Ultimately, the program was not used in that way, but part 
of the reason may well have been that in a pre-September 11 
world, it wasn't seen as advantageous to recruit prisoners into 
terrorism out of the prison system because it was seen as more 
desirable to be able to raise funds and gain political 
influence in the United States. But now, in the post-September 
11 world, the United States is undeniably seen as the focus of 
the global jihad.
    In closing, I would like to recognize the Committee and the 
staff for their professionalism and extend an open offer to 
continue to work closely with them. I am pleased to try to 
answer any questions that you may have.
    Chairman Collins. Thank you very much for your testimony.
    I would like to follow up on some of the points that you 
just made. You talked about the literature that was being sent 
in to prisons under your prison literature program, and you 
described it as undeniably radical. You read some excerpts from 
the Noble Qur'an, which certainly is the radical 
interpretation. But I understand that this publication, Islamic 
Guidelines, was also sent in by the charity, is that correct?
    Mr. Gartenstein-Ross. Yes, that is correct.
    Chairman Collins. I would like to have the board \1\ put up 
so that I can read a couple of excerpts from this book, as 
well. There is a section on jihad as collective duty, and it 
says, ``If someone makes any obstacle in the way of 
propagation, Muslims are allowed by Allah to fight them until 
Islam becomes the governing authority. Jihad in this sense will 
not stop until the day of judgment.'' And then there is another 
quote that says, ``The last hour will not appear unless the 
Muslims fight the Jews and kill them.'' Obviously, a very 
extremist and radicalized version of Islam.
---------------------------------------------------------------------------
    \1\ The posters referenced by Senator Collins appear in the 
Appendix on page 83.
---------------------------------------------------------------------------
    My question to you is this. During any time that you were 
associated with sending this kind of extremist literature in 
the prison, was it ever refused by prison officials? Was it 
ever turned back or rejected that you are aware of?
    Mr. Gartenstein-Ross. No. During my time there, the 
literature was not once refused on the basis of its radical 
content. There were two instances I recall of literature being 
refused. Once, there was a prison chaplain who refused one of 
the pamphlets that we sent in. It was written in the typical 
vitriolic style of Al Haramain material, and it was a pamphlet 
discussing the Nation of Islam. But his concern was not so much 
the content itself as the potential for creating sectarian 
strife within the prison.
    The second instance of literature being refused was when a 
prison screener found that we had sent literature bundled in a 
manila envelope that had a metal clasp. He thought that the 
metal clasp might be used as a weapon by prisoners without any 
attention to the content of the material, which may well have 
been the deadlier weapon.
    Chairman Collins. This is an issue that I am going to raise 
with our next panel, but I want to follow up, Mr. Cilluffo, 
with your comment in which you talked about the need for more 
involvement by the Muslim community. It seems to me that this 
is an excellent example, where many prison officials, 
particularly at the State or even local level, are simply not 
going to have the resources or the expertise to do a review of 
the literature to see if it is appropriate. There is obviously 
also a difficult balancing test in that you don't want to 
impede the flow of legitimate information about Islam into the 
prisons.
    Last week, we had a hearing in which we heard all of the 
witnesses who were asked to look ahead to the emerging threats 
over the next 5 years, and all of the witnesses told us that 
there needed to be more of an outreach to the Muslim community. 
You mentioned that in closing in your comments. Could you 
expand on how we might be able to better involve moderate 
Muslims in programs with prisons, including the review of 
literature?
    Mr. Cilluffo. Absolutely, Madam Chairman, and that, to be 
honest, is the primary reason, or one of the primary reasons, 
we advocated the creation of a commission, since this cannot be 
won or defeated or tackled long-term by law enforcement means 
alone. That is only a small part of the solution. Rather, we 
need to bring people who actually have the knowledge and the 
wherewithal to be able to steer people in another direction and 
who have the capacity and the capability to know when things go 
awry.
    But I think if we look at it only through a 
counterterrorism perspective, that is automatically going to 
create defensive postures, understandably, that we need to 
actually expand those issues, and we quite honestly need more 
imams. We need more chaplains, I mean, at the Federal level. We 
only have 10 imams. In California, where we are talking about 
300,000 people throughout the system, including paroles on the 
parolee side, we only have 20 imams. That is a tip. That is a 
very small percentage that can even handle the Muslim needs.
    So what I think we need to be able to do is expand the 
dialogue, but if we only look at it through this particular 
lens, and that in large part is where that dialogue is 
occurring, we are only going to get so far. So I think that we 
need to be able to put together an entity and a group that are 
going to look at it from multiple perspectives, from different 
denominations, as well, because ultimately it is going to 
require--this is a challenge that is within, to some extent, 
the Muslim faith, and they are going to be the most important 
component to any solution.
    One may argue, where is the Martin Luther King? Where is 
the Mahatma Gandhi? Maybe we need martyrs. But I think at the 
end of the day--for good, not only for terrorism. But at the 
end of the day, it is going to require bringing these 
communities in a trusted, honest way as part of an honest 
dialogue.
    Chairman Collins. Dr. Saathoff, could you help us better 
understand the circumstances under which radicalization lasts? 
What I am talking about is from your testimony, it has helped 
us understand why the prison population is particularly ripe 
for radicalization efforts. After all, many prisoners are anti-
social, angry at their government, looking to strike back, 
alienated, are seeking some sort of bond. But what causes the 
radicalization to last after an inmate is released from prison? 
I can understand why our prisons are fertile grounds, but once 
the inmate is released?
    Dr. Saathoff. Chairman Collins, this is a question that is 
on the minds of so many researchers who are interested in this 
issue. Certainly, there is such a dearth of research and 
literature on this issue of radicalization and particularly the 
issue of how radicalized individuals move to that next 
important step. And so I would say that we know very little 
except for the fact that networks and social bonds are very 
powerful. And so those kinds of social bonds that keep people 
in other types of organizations, religions, etc., are also 
important, from what we can understand, in terms of keeping 
people bonded within a certain community. And so as we look at 
not only the issue of prisons, but also rehabilitation and 
probation and parole, as Senator Carper was mentioning, these 
are issues that we would advise that a commission look at 
because the only way to loosen certain bonds is to find out how 
we can strengthen others.
    Chairman Collins. Thank you.
    Mr. Gartenstein-Ross, the comments the physician has just 
made about networks leads me to a final question for you before 
I yield to my colleague, and that is the compilation by Al 
Haramain of this enormous database on 15,000 prisoners, 
information about their release dates and the address to which 
they were going to be released, what do you think was the 
organization's purpose in compiling all that information? You 
made clear in your testimony that, as far as you know, it 
wasn't used as a recruitment tool. Why would the organization, 
which is a sponsor of terrorism, go to the effort of 
maintaining such a detailed, comprehensive database on 15,000 
inmates?
    Mr. Gartenstein-Ross. Well, the information is dual-
purpose. It is information that could be used either for 
legitimate purposes or for more nefarious purposes in terms of 
terrorist recruitment.
    In the case of legitimate purposes, the information can be 
used to make sure you don't send the same literature to an 
inmate twice, to make sure that you don't send literature to 
the inmate after the inmate has been released from prison, and 
also the address to which the inmate is released could allow 
for an ongoing relationship, but one that isn't necessarily 
tied to recruitment to terrorism.
    In this case, Al Haramain, it seems to me, had a few 
factors working against it when using this for terrorist 
recruitment, one of which was that the head office in Riyadh, 
which held the purse strings, really didn't have the idea of 
the kind of gold mine that it had in its hands. Rather than 
recruiting people out of prisons, they were much more intent on 
the social status that would be attained from recruiting rich 
white people into Islam and specifically instructed the head 
U.S. office that this is the kind of demographic that we should 
concentrate on.
    One other thing that I think is important is, as I said in 
my testimony, this was all the pre-September 11 world, where a 
lot of Al Haramain's support for terror was focused on jihads 
in Chechnya, in Bosnia, in the Philippines, in Uzbekistan, and 
other far-flung places. Focusing on these various far-flung 
jihads and supporting them doesn't necessarily translate into a 
real need to recruit inmates from the U.S. prison system for 
terror plots. And in fact, they may have thought that doing so 
would be counterproductive because we were able to operate very 
freely in the pre-September 11 world. You saw the kind of 
literature that made its way into prisons, never once being 
questioned. If they were seen as trying to actively subvert the 
United States or do violence to it, that may have, in their 
view, somewhat undermined their cause.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman. I just want to say, 
we have had a lot of witnesses come before us. These are three 
of the best. That is why I want to do this for a living. I 
thank you very much for coming and for your testimony and for 
your response to our questions. I see in the audience sitting 
behind the witnesses my friend Thurgood Marshall, Jr. Welcome. 
I can just barely see your lips move when he testified, so you 
have that down pretty good. [Laughter.]
    I want to go back to the issue of how few imams there are 
in these prisons. It is really striking. In our own prison 
system in Delaware, I am aware that there are a number of folks 
who come to our prisons on a fairly regular basis of different 
faiths. They do it in many cases on a volunteer basis, but they 
are there.
    I am Protestant. I think the Chairman is Catholic. In the 
New Testament, there is a verse which is actually pretty well 
known where we are exhorted, like when people are sick, we 
should visit them. When people are naked, we should clothe 
them. When they are hungry, we should feed them. When they are 
thirsty, we should give them a drink. And when they are sick 
and in prison, we should go visit them. A number of people in 
our faith take that seriously. Is there a similar kind of 
urging within the Qur'an to do that kind of thing? I presume 
that there is, but I just don't know. We see it as sort of a 
Biblical injunction, what we should do as part of our faith, 
rather than just to talk a good game, but actually do it, and 
part of it is to visit people in prison.
    Mr. Gartenstein-Ross. Certainly within the Islamic faith, 
you can find a number of different injunctions that ask you to 
care for those who are less well off. There is a lot of ways, 
including Muhammad's kind of elevation of the social status of 
slaves during that time and the like, that I think would give 
Muslims a similar sort of desire to help out within the prison 
system.
    One thing that has served as a barrier in the past is the 
certification process. For Federal prisons, there were only two 
organizations for a long time, both of which had at least some 
sort of Wahhabi or Salafi ties, that were allowed to certify 
Federal prison chaplains. Likewise, there often is not a 
situation where there is trust necessarily between members of 
the Muslim community and the prison system. But in the end, the 
fact that there are so few imams does indeed, as Mr. Cilluffo 
said, open the door for radicals to come forward when Muslim 
chaplains and Muslim imams who are more moderate in orientation 
aren't really spearheading efforts to do so.
    Senator Carper. Let me stay with this issue for just a 
moment. What should we be doing at the Federal level or State 
or local level to encourage folks of the Muslim faith to come 
forward, people who are not jihadists but mainstream? What can 
we do to encourage them, to make them feel welcome, if you 
will?
    Mr. Cilluffo. Senator Carper, if I can expand because this 
is a differentiator between maybe the way the United States 
handles this issue and some of our allies overseas in Europe. I 
think if you look throughout Europe, and there are a number of 
phenomenal studies that have been done, perhaps the best one 
was actually done after the Van Gogh murder in the Netherlands, 
their intelligence service put together ``Violent Jihad in the 
Netherlands: Current Trends and the Islamist Terrorist 
Threat.'' I think the Europeans are looking at this from a top-
down perspective. I think that the reason we are to some extent 
more inoculated from the crisis that they arguably are facing 
is because we need to look at it from the bottom up and from 
the top down.
    The bottom line here is that is that this is going to be as 
big of a role for a governor, for a mayor, and for county 
executives as it is going to be from the Federal perspective. 
And actually, the Federal Bureau of Prisons, in large part 
thanks to Congressional leadership in hearings held on the 
Judiciary Committee, did take some proactive actions after some 
hearings as well as an Inspector General's report and have 
closed some of the holes in terms of some of the imams that 
were finding their way, and the Muslim chaplains, into the 
prison system. But it is not an issue of just making sure we 
are weeding out some of the more radicalist preachers but 
finding others to participate, and that is where relief 
organizations and the like are going to play a big role.
    But here again, you have that vetting challenge. Do you 
know who you know? To me, that is largely going to be part of a 
larger discussion that is going to have to occur at the 
community level, from the bottom up as well as from the top 
down, and ultimately information and intelligence and 
knowledge. So it is bringing all these pieces together. That is 
what is so difficult with this challenge; you can't look at it 
only through a law enforcement or national security lens. That 
part is actually kind of easy, comparatively speaking. It is 
then looking to what we really mean by solution sets.
    Senator Carper. All right. Thank you.
    Dr. Saathoff, I think it was you who mentioned information 
technology, and I think you said fully integrated. Would you 
just go back and tell us again what you were saying there?
    Dr. Saathoff. I was referring to the disparate information 
technology systems looking at inmates. There are some systems 
where visitors, for example, within a State at least are 
identified by name so it is possible to find out where visitors 
are going. There is no question but that visitation is really a 
crucial and very constructive element of prison rehabilitation, 
but there are some State systems that would not be able to tell 
you through data mining whether or not there are certain 
individuals who are just going to one prison and visiting 
family members, for example, or perhaps going to disparate 
prisons and visiting people that they don't know.
    So looking at patterns, I think it is important for us to 
be able to just understand and shine a light, and because of 
the way information technology has advanced over time, what we 
have are different systems that don't necessarily communicate.
    I would like to just add to Mr. Cilluffo's statement with 
regard to your really vital question, and that has to do with 
welcoming and bringing in the constructive aspects that 
religion brings. I focused to some extent on how technology and 
information technology is a problem. The images that are seen 
in prison can certainly mobilize inmates in negative ways, but 
there are also ways in prisons, for example, that information 
technology is a real success.
    For example, we have inmates in the prisons that I work in 
who have very serious diseases, and because of the rarity of 
their disease, it may not be possible to bring a specialist, a 
top physician, to that prison to examine the patient. It may 
also be difficult for security reasons to transport the patient 
on a weekly basis. However, through telemedicine, we can bring 
top-quality professionals into the prison setting for very 
personal, direct contact.
    And so I think as we look at this confusing set of 
circumstances, just as information technology can be identified 
as a problem, ultimately, I think it really is going to be a 
solution in terms of really opening up more options for 
constructive, important interactions with regard to religion.
    Senator Carper. Thank you. Madam Chairman, I just have a 
thought here. You mentioned the telemedicine and what a great 
use of technology that can be in the prison system. We have a 
situation where we don't have very many imams who can come in 
and proselytize and deliver the sort of message, responsible 
message, that most of us would welcome. Has there been any use 
of the kind of technology that we are talking about in 
providing better medical care to allow mainstream imams to come 
in without physically being present in the prison but to be 
able to deliver a message that really reflects what is in the 
Qur'an? Is anybody doing that?
    Dr. Saathoff. Senator, I am not aware of that.
    Senator Carper. Just take a moment and react to that idea. 
It may be a bad idea, but on Sunday mornings, you turn on the 
TV, and there are plenty of televangelists on the airways. 
There might be a good idea there.
    Mr. Cilluffo. Senator Carper, I do think that is something 
worth exploring, and we did identify that to some extent as 
something a commission could look at, not specifically as it 
pertains to some of the telebroadcasts, but there really is no 
standard for what is acceptable and what is unacceptable 
material that is being disseminated throughout our systems. We 
know some literature that arguably does not reflect, and I 
would suggest doesn't reflect, the Qur'an has found its way. So 
how do we build some of that capacity? I think information 
technology could be part of the solution.
    Senator Carper. All right. Thanks very much.
    Chairman Collins. Thank you. I want to thank this panel of 
witnesses very much. You have helped increase our understanding 
of the challenges that we face, and we look forward to 
continuing to work with you, so thank you for your 
participation.
    I would now like to call forth the witnesses on our second 
panel.
    Our first witness is Dr. John Vanyur. He is the Assistant 
Director of the Correctional Programs Division of the Federal 
Bureau of Prisons. He directs the security, intelligence, case 
management, mental health programs, religious services, 
community programs, and private prison management for the 113 
correctional facilities and approximately 192,000 inmates 
nationwide. He has held a variety of positions during his 25-
year career with the Department of Justice.
    Our second witness is Donald Van Duyn. He joined the FBI in 
August 2003 after 24 years of service in the CIA as an analyst 
and manager of analysts. He currently serves as the Deputy 
Assistant Director of the Counterterrorism Analysis Branch in 
the Counterterrorism Division.
    Our third witness, Javed Ali, serves as the Senior 
Intelligence Officer for the Chief of Intelligence in the 
Department of Homeland Security. Prior to joining DHS, he 
served as an intelligence officer with the Defense Intelligence 
Agency's Joint Intelligence Task Force on Combatting Terrorism.
    We welcome all of you to the hearing today, and Dr. Vanyur, 
I would ask that you start.

      TESTIMONY OF JOHN M. VANYUR,\1\ ASSISTANT DIRECTOR, 
CORRECTIONAL PROGRAMS DIVISION, FEDERAL BUREAU OF PRISONS, U.S. 
                     DEPARTMENT OF JUSTICE

    Dr. Vanyur. Thank you. Chairman Collins and Members of the 
Committee, I am pleased to appear before you today to discuss 
the efforts of the Bureau of Prisons and what we are taking to 
ensure that we are preventing the recruitment of terrorists and 
extremists in our Federal prisons.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Vanyur appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    The Bureau of Prisons is committed to providing inmates 
with the opportunity to practice their faith while at the same 
time ensuring that Federal prisoners are not radicalized or 
recruited for terrorist causes. We understand the importance of 
controlling and preventing the recruitment of inmates into 
terrorism. We know that inmates are particularly vulnerable to 
recruitment by terrorists and that we must guard against the 
spread of terrorism and extremist ideologies.
    Our practices in institution security and inmate management 
are geared toward the prevention of any violence, criminal 
behavior, disruptive behavior, or other threats to institution 
security or public safety. We have taken a number of measures 
over the last several years, and we are actively engaged in 
several ongoing initiatives to ensure that Federal inmates are 
not recruited to support radical organizations or terrorist 
groups. We have eliminated most inmate organizations in order 
to control the influence that outside entities have on Federal 
inmates. We also have enhanced our information and monitoring 
systems, our intelligence gathering and sharing capabilities, 
and our identification and management of disruptive inmates.
    We have been managing inmates with ties to terrorism for 
over a decade by confining them in secure conditions and by 
monitoring their communications. We have established a strategy 
that focuses on the appropriate levels of containment and 
isolation to ensure that inmates with terrorist ties do not 
have the opportunity to radicalize or recruit other inmates. 
The most dangerous terrorists are confined under the most 
restrictive conditions allowed.
    We monitor and record telephonic communication involving 
inmates with terrorist ties, and we share any relevant 
information with the FBI, the National Joint Terrorism Task 
Force, and other agencies. In addition, our institutions work 
closely with the local joint terrorism task forces to share 
information and intelligence about these inmates.
    The Bureau of Prisons has two full-time employees assigned 
to the National Joint Terrorism Task Force to facilitate our 
involvement on this task force and to coordinate the exchange 
of intelligence related to corrections. These two members of 
the NJTTF also manage the Correctional Intelligence Initiative, 
a nationwide NJTTF special project involving correctional 
agencies at the Federal, State, and local levels designed to 
detect, deter, and disrupt the radicalization and recruitment 
of inmates.
    In addition to containing and isolating inmates who could 
attempt to radicalize other inmates, we help inmates become 
less vulnerable to any such attempts. Experts have identified 
the societal marginalization of inmates as the key factor in 
their becoming radicalized. The Bureau of Prisons provides 
inmates with a broad variety of programs that have proven to 
assist in the development of key skills, thereby minimizing the 
likelihood of the inmates being marginalized.
    Moreover, we are well aware of the important role religious 
programs can play in preparing inmates to successfully 
reintegrate into society. Religious programs and chaplaincy 
services are provided to the approximately 30 faiths 
represented within the Federal prison population. Full-time 
civil service chaplains in the Bureau of Prisons lead worship 
services and provide pastoral care and spiritual guidance to 
inmates, and they oversee the breadth of religious programs and 
monitor the accommodations provided by the contract spiritual 
leaders and community volunteers.
    We screen all of our civil service staff, volunteers, and 
contractors to avoid hiring or contracting with anyone who will 
pose a threat to institution security. Bureau of Prisons civil 
service chaplains must meet all of the requirements for 
employment as a Federal law enforcement officer. And like all 
Bureau of Prisons employees, chaplains are strictly prohibited 
from using their position to condone, support, or encourage 
violence or other inappropriate behavior.
    Our religious contractors and volunteers are also subject 
to a variety of security requirements prior to being granted 
access to our institutions, and we have and continue to work 
closely with the FBI and the National Joint Terrorism Task 
Force to improve our screening of contractors and volunteers. 
Information on staff chaplains, contractors, and volunteers is 
checked against databases supported by the FBI. We have also 
enhanced the supervision of programs and activities that take 
place in our chapels over the last 3 years, and we have trained 
nearly all of our staff on recognizing the signs of potential 
radicalization.
    Chairman Collins, this concludes my formal statement. I 
would be pleased to answer any questions you or other Members 
of the Committee may have.
    Chairman Collins. Thank you. Mr. Van Duyn.

TESTIMONY OF DONALD N. VAN DUYN,\1\ DEPUTY ASSISTANT DIRECTOR, 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Van Duyn. Madam Chairman, Ranking Member, thank you for 
the opportunity to speak to you on the issue of prison 
radicalization in the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Van Duyn appears in the Appendix 
on page 74.
---------------------------------------------------------------------------
    Before I begin, I would like to emphasize that Islam itself 
is not the problem, but rather how Islam is used by violent 
extremists to inspire and justify their actions. The FBI does 
not investigate individuals for their religious beliefs, but we 
investigate the activities of individuals who want to do harm 
to the citizens and interests of the United States and abroad.
    The FBI and the Bureau of Prisons analysis shows that 
radicalization and recruitment in U.S. prisons is still an 
ongoing concern. Prison radicalization occurs mostly through 
anti-U.S. sermons provided by contract, volunteer, and staff 
imams, radicalized inmates who gain religious influence, and 
extremist media. Ideologies that radicalized inmates appear 
most often to embrace include or are influenced by the Salafi 
form of Sunni Islam and an extremist view of Shiia Islam 
similar to that of the government of Iran and Lebanese 
Hezbollah.
    There are two groups of concern involved in prison 
radicalization and recruitment. The first group consists of 
inmates. These radicalized inmates either feel discriminated 
against in the United States or feel that the United States 
oppresses minorities and Muslims overseas. The feeling of 
perceived depression, combined frequently with their limited 
knowledge of Islam, especially for the converts, makes this a 
vulnerable population for extremists looking to radicalize and 
recruit.
    Radicalized inmates are of concern for a number of reasons. 
Influential inmates could urge other prisoners to attend 
certain mosques or Islamic centers in the United States or 
overseas upon their release that may present opportunities for 
the further proselytizing of radical Islam. Influential inmates 
could also pose a risk to prison security by urging inmates 
under their influence to disobey prison authorities and 
possibly incite violence within the facility. Inmates who have 
acquired skills used in terrorism activities could pass them on 
to other prisoners.
    The second group consists of contract, volunteer, and staff 
personnel, the majority of which are imams who enter 
correctional facilities with the intent to radicalize and 
recruit. Particularly for Muslim converts, but also for those 
born into Islam, an extremist imam can strongly influence 
individual belief systems by speaking from a position of 
authority on religious issues. Extremist imams have the 
potential to influence vulnerable followers at various 
locations of opportunity, can spot and assess individuals who 
respond to their messages, and could potentially guide them 
into increasingly extremist circles after release.
    Aside from individuals providing radical messages, there is 
also extremist media in the form of literature and videos being 
circulated within the prison population that appears to be a 
significant factor in prison radicalization.
    The majority of cases involving radicalization have not 
manifested themselves to date as a threat to national security. 
There have been, however, instances where charismatic elements 
within the prison have used the call of global jihad as a 
source of inspiration to recruit others for the purpose of 
conducting terrorist attacks in the United States. You referred 
to the JIS group in California, which is probably the most 
well-known case at this point in time, and that was certainly a 
wake-up call, I think in general, for both the FBI and the 
Bureau of Prisons in how we approach this problem, and I won't 
go into further detail on that.
    The FBI and the Bureau of Prisons have been actively 
engaged in efforts to detect, deter, and disrupt efforts by 
extremist groups to radicalize and recruit in U.S. prisons 
since February 2003. These activities have been organized 
through the Correctional Intelligence Initiative, which you 
referred to earlier. I would like to stress that we have 
extended this initiative beyond just the Federal system, but 
into the State and local correctional facilities, and we 
realize the need to do that further.
    The CII program focuses first on improving intelligence 
collection, so that we truly understand the problem; detecting, 
deterring, and disrupting efforts by terrorist, extremist, or 
radical groups to radicalize or recruit in Federal, State, 
local, territorial, tribal, or privatized prisons; providing 
training and support materials that can be used by our field 
offices, JTTFs, and correctional institutions for training and 
outreach at State and local correctional institutions.
    All of these elements have helped to identify numerous 
factors responsible for the spread of radicalization and 
recruitment in prisons. A recent comprehensive assessment based 
on a survey of nearly 2,000 State and local correctional 
facilities identified the following trends. Most cases of 
prison radicalization and recruitment appear to be originated 
by domestic extremists with few or no foreign connections. Some 
radicalized Islamic inmates are current or former members of 
street or prison gangs, indicating an emerging crossover trend 
from gang member to Islamic extremist. Radicalization activity 
appears to be higher in high-population areas on the West Coast 
and the Northeastern United States.
    The FBI and Bureau of Prisons assessment identified best 
practices for correctional institutions to follow to combat the 
spread of radicalization and recruitment. Some of these are: 
Establish systemwide vetting protocols for all contractor and 
volunteer applicants; create systemwide databases of 
contractors and volunteers providing direct inmate services; 
improve monitoring capabilities; coordinate inmate transfers; 
share information among all levels of law enforcement and 
correctional personnel.
    Numerous FBI analytical products as well as operational 
highlights have been disseminated to our foreign liaison 
partners, from classified products to unclassified assessments 
for a wide audience. The feedback from these products has 
helped us to better drive our analytical and investigative 
perspectives and identify services where bilateral exchanges 
could prove beneficial on this issue.
    I would like to thank the Committee for the opportunity to 
address this important issue and look forward to answering your 
questions.
    Chairman Collins. Thank you.
    Senator Carper, I know that you have to leave shortly. Do 
you have any questions you would like to pose?
    Senator Carper. If I could. I apologize. The new President 
of Amtrak is waiting in my office to meet with me. It is a 
meeting we have sought, and I don't want to keep him waiting.
    Could I ask the same question of each of you, if I may. 
What advice do you have specifically for us on this Committee 
and for us in the Senate on what we should be doing to address 
these concerns?
    Dr. Vanyur. Before I answer that, let me just mention, 
getting back to your suggestion on technology, this is a little 
lower tech than your suggestion, but what we did in the Bureau 
of Prisons is we had our imams, our civil service imams, 
videotape 125 jumma prayer sermons and over 70 Islamic study 
group sessions, and we distributed those throughout our system 
so that if we have inmate-led groups, which I am sure we will 
probably get into a little bit later, they have a plug-and-play 
appropriate----
    Senator Carper. That is the kind of thing we do in our 
adult Sunday school classes in my church, and I am sure you are 
familiar with that in other faiths. Go ahead.
    Dr. Vanyur. I think the best thing is training, 
particularly pushing down training to the State and local 
levels, and so the appropriate resources for the development 
and the appropriate funding for the delivery of that training 
throughout all corrections--tribal, private, local, State, and 
Federal--to me would be the most effective strategy for this 
Committee.
    Senator Carper. Thank you.
    Mr. Van Duyn. I certainly concur with Dr. Vanyur's 
assessment of the need for training and the greater awareness 
throughout the system so that people are aware of the problems 
that they are facing. And then in addition, I think to the 
degree to which we can integrate systems for vetting and 
information systems so that various institutions can talk to 
one another and exchange data easily would be the second thing 
that would be highest on my agenda.
    Senator Carper. Good. Thank you. There is a national 
organization of State correctional secretaries or 
commissioners, and so they have a great forum to share that 
kind of stuff.
    Mr. Ali, I am sorry I am going to miss your testimony, but 
just give me one or two take-aways, if you will.
    Mr. Ali. Sure. Just to add to the comments that have 
already been made, I think two other important points that 
cross-cut various aspects of this radicalization issue, not 
just prison radicalization, outreach and dialogue with 
communities identified at potential risk of being exposed to 
these radical beliefs, whether in the prison system or not, I 
think that is certainly an effort that we need to further 
develop at the Federal level, and also continued dialogue at 
the State and local level to have contact with officials who 
are really seeing these experiences and activities on the 
ground. I know just from our DHS perspective, our understanding 
of just the prison radicalization issue has been incredibly 
enhanced by having direct interaction with State and local 
officials, and that is the perspective we just did not have at 
the national level. So those things from our perspective are 
very important.
    Senator Carper. Our thanks to all of you, and I apologize 
for having to leave. Madam Chairman, thanks so much for giving 
me the opportunity to ask those questions. Thank you.
    Chairman Collins. Thank you. Mr. Ali, you can proceed with 
your statement.

TESTIMONY OF JAVED ALI,\1\ SENIOR INTELLIGENCE OFFICER, OFFICE 
   OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Ali. Thank you. Chairman Collins, Senator Carper, I 
know you are leaving, thank you for the opportunity to share 
perspectives from the Department of Homeland Security on the 
topic of prison radicalization.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ali appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Since 2004, a spate of activities in Western Europe carried 
out or supported by radicalized homegrown Sunni extremists, 
including the March 2004 attacks in Madrid and the July 2005 
attacks in London, have really focused national attention on 
the overseas phenomenon of radicalization or homegrown 
extremism. But more recently, developments here in the United 
States and Canada, including the disrupted JIS incident, which 
we have discussed and heard about here in California, but also 
the Toronto 17, those arrests in June, have also focused the 
same kind of attention on the phenomenon in North America. 
Against the backdrop of our larger efforts to understand 
radicalization here, activity occurring in some prison systems, 
such as last year's JIS incident, has become of keen interest.
    In early 2006, the Department of Homeland Security Office 
of Intelligence and Analysis formed a team to develop a 
comprehensive intelligence-focused project that seeks to 
address how, why, and where radicalized ideas and beliefs 
develop over time in the United States. This project is part of 
a broader DHS approach in addressing the issue of 
radicalization and will help inform the Department-wide effort 
to understand and mitigate the phenomenon.
    We are conducting our study in a phased approach, focusing 
on examining radicalization dynamics in key geographic areas 
throughout the country. Our first phase focused on assessments 
in California and New York. Our second phase is focusing on the 
Midwest and the National Capital Region, and we hope to, beyond 
these first two phases, conduct other regional or State-
specific assessments with the goal that all of these 
assessments will provide the building blocks for a larger 
national picture on radicalization.
    Thus far, we have found that the relationships between 
radicalization nodes and radical actor/groups vary across 
ideological and ethno-religious spectrums, different geographic 
regions, and socio-economic conditions throughout the country. 
Further, we have found several diverse pathways to 
radicalization in the United States through an examination of 
these nodes, and from our perspective, nodes are the conduits 
that facilitate and support the radicalization process, and 
they can be several things. They can be physical institutions, 
such as prisons; they can be virtual communities; they can be 
charismatic individuals; they can be written or recorded 
material, or even shared experiences or what we call a rite of 
passage.
    Further, we are also finding that radicalization in the 
United States is not a one-way street and that individuals and 
groups who can radicalize can just as easily deradicalize 
depending on a very complex set of factors. This particularly 
holds true when looking at the prison radicalization issue.
    Our research and discussions indicate that radicalization 
within prisons has occurred predominately, but not exclusively, 
among the African-American inmate population and those 
affiliated with gangs. Looking at that data set, inmates have 
been radicalized through charismatic, religiously radical 
inmates; by clerics, contractors, and volunteers who serve as 
religious authorities; and through extremist propaganda created 
both inside and outside of prison walls.
    As a result, from our perspective, there appear to be both 
bottom-up and top-down influences shaping the prison 
radicalization dynamic, although it is difficult to assign 
percentages as to which influence is greater.
    We judge that the current radicalization dynamics in some 
U.S. prison systems do not yet present the level of operational 
threat seen in other parts of the world. That said, last year's 
incident with the JIS in California suggests that small 
motivated clusters of like-minded individuals exposed to 
radical beliefs within prisons could potentially cause harm 
once released.
    We have worked with partners at the Federal, State, and 
local levels to enhance our understanding on this issue of 
prison radicalization. At the Federal level, we have worked 
with the FBI and the Bureau of Prisons, amongst others, and at 
the State and local levels, as I indicated before, we have held 
discussions with officials in a variety of locations, to 
include New York, California, Illinois, and Ohio, regarding 
their particular unique perspectives on radicalization and will 
also soon hold similar meetings with representatives from 
Texas, Virginia, Maryland, and Washington, DC.
    In conclusion, our work on radicalization, including the 
examination of the extent and depth of the phenomenon within 
prisons in the United States, is preliminary and by no means 
complete. Continued dialogue and relationship building with 
Federal, State, local, and even foreign partners are critical 
aspects of this work. We hope our efforts on radicalization 
will help enhance the Department's perspectives on this issue 
and help policy makers throughout the Federal Government make 
the most informed judgments about how best to address the 
phenomenon inside the United States.
    Madam Chairman, thank you again for giving me the 
opportunity to speak with you and Members of the Committee, and 
I welcome your questions.
    Chairman Collins. Thank you very much.
    Dr. Vanyur, you anticipated what my first question was 
going to be in your comment to Senator Carper. In your 
testimony, you talked about screening all of the civil service 
staff, volunteers, and contractors, that each Bureau of Prisons 
civil service chaplain has to meet certain requirements for 
employment, that there is a field investigation, a reference 
check, a panel interview. But we know that due to the shortage 
of imams going into our prisons, that a lot of Islamic groups 
within prisons are led by inmates. Is there a system for 
screening inmate-led religious discussions or services to 
ensure that the radicalized form of Islam is not being taught? 
I am told by law enforcement officials that there is even a 
nickname for it of Prislam, that it is that common.
    Dr. Vanyur. The answer is yes, and let me just mention, to 
look at the 11 civil service imams is really underestimating 
who is delivering Islamic services throughout the Federal 
system. There are also 56 contract imams that are not employees 
of ours, but are on a contractual pay basis, delivering Islamic 
services inside Federal prisons, and over 20 Islamic 
volunteers.
    But that said, there is a substantial portion of Islamic 
services being led by inmates. A lot of that has to do with 
where we have built prisons in many of the States and in the 
Federal system over the last 20 years. Many of them are in very 
rural and remote areas where there is just not a large Islamic 
population in that area.
    What we do with inmate-led groups is a few things. First, 
any inmate-led group has to have 100 percent constant staff 
supervision. So anytime there is an inmate-led group or an 
inmate-led study or jumaa prayer, there is a staff member in 
that room 100 percent of the time.
    We require all of our religious services to be in English 
except for that part of the service that has some formulaic 
prayer. So in a jumaa service, you have got a piece of it that 
is a formulaic prayer, for lack of a better word, that needs to 
be in Arabic. But then the sermon or homily, we require that to 
be in English so that our staff member can understand what is 
going on.
    We require that the inmate-led groups rotate the inmate who 
is leading that group week to week so that we don't have one 
individual who is dominating the group or trying to steer the 
group in a particular direction.
    We also ensure that we have standardized headgear and 
procedures for inmates. Years ago, we would let inmates have 
their own religious headgear, so they would use that as a sign 
of leadership, different color kufis and other religious 
headgear. Now we have standardized all that to take away any 
trappings of leadership or direction that an inmate can bring 
on.
    So we think with that really intense monitoring, the 
requirement of English, and then that piece I mentioned earlier 
where we provide a lot of videotapes and study guides that are 
the appropriate, accurate form of Islam, that we have very good 
control over the inmate-led groups.
    Chairman Collins. You heard on our previous panel the 
discussion that I had, and I am going to ask that the 
posterboards be put back up, that had some very disturbing 
radicalized quotes on an extremist version of Islam that was 
part of literature sent into prisons by the group Al Haramain, 
which was later designated as a sponsor of terrorism. This 
particular copy of this very disturbing book was ordered by my 
staff on amazon.com. It is a used version of it. If an inmate 
ordered this book today, would there be any review of it by 
prison officials or would it most likely get to that inmate?
    Dr. Vanyur. Every incoming publication is reviewed, but 
there is a different standard for the publications that we 
place in our chapels that we control, which is totally 
discretionary in what the Bureau of Prisons wants to place in 
that chapel, and what an inmate can get. And so the standard 
for an inmate is much lower, and the standard is generally if a 
publication presents a threat to institution security, deals 
with drug introductions, criminal activity, then we would 
reject the publication.
    It gets very difficult when you talk about what are sort of 
religious-political rhetoric in terms of whether that crosses 
the line of threatening institution security or being part of 
criminal activity. So I can't comment specifically on that 
book, but it is a difficult issue, I think, on the publications 
because of the First Amendment rights that inmates still have. 
So my response, Senator, is that, yes, we would review the 
book, but I couldn't tell you without further review whether we 
would reject it across the board or not.
    Chairman Collins. What standard is used to decide whether 
literature should get through to an inmate?
    Dr. Vanyur. Again, the standard is very clear in Federal 
regulation, if it is detrimental to the security, good order, 
or discipline of an institution or facilitates criminal 
activity, and that is the standard that is in Federal 
regulation that would cause us to reject a particular piece of 
correspondence or a publication.
    Chairman Collins. I guess I need to go to some of the 
specific language in this to understand whether this would meet 
that standard. As this chart shows, it says ``the last hour 
will not appear unless Muslims fight the Jews and kill them.'' 
The earlier posterboard said, ``If someone makes any obstacle 
in the way of propagation, Muslims are allowed by Allah to 
fight them until Islam becomes the governing authority.'' Is 
that kind of language sufficient to block this literature from 
reaching an inmate?
    Dr. Vanyur. I believe this last quote would be because you 
are talking about killing other individuals.
    Chairman Collins. Right.
    Dr. Vanyur. And we try to push out literature that 
disparages other religions, also, but these are difficult 
decisions to be made at the local level, and to be honest with 
you, the more difficult decisions are not in Islamic text. We 
have a lot of white supremacist literature and Christian 
identity movement and a number of other types of literature 
that come in that we are constantly making these decisions on. 
So I believe, particularly based on that last quote, we would 
reject that book.
    Chairman Collins. Do you involve experts, religious experts 
of all faiths, in reviewing literature related to a particular 
faith to decide what should come in and what shouldn't? You 
have mentioned, and obviously I mentioned in my opening 
statement, some white supremacist groups that have very violent 
literature that could come in under the guise of religion. Do 
you involve clergy, mainstream clergy, from various faiths to 
help you do this kind of review?
    Dr. Vanyur. We do. We have over 200 civil service 
chaplains, and we designate some as subject matter experts for 
their particular religion that we use to review many of these 
materials. In the case particularly of Islam because our number 
of imams is so low, we have reached out to a number of 
universities and other Islamic study centers to try to assist 
in this. But I would agree with the three speakers in the last 
panel that the amount of outreach and contact can be greatly 
improved.
    Chairman Collins. It is my understanding that the Bureau of 
Prisons is doing an inventory of books in both chapel libraries 
and in the main libraries of prisons. Is that correct?
    Dr. Vanyur. That is correct.
    Chairman Collins. And that is ongoing?
    Dr. Vanyur. That is ongoing, and it is showing us some of 
the problems that we are going to confront because the number 
of entries so far in our database exceeds 20,000. So there is a 
lot of material that is out there.
    One of the changes we just recently made is we have for the 
first time taken specific publishers and any materials produced 
by those publishers, we have removed from any of our libraries 
and frozen, and that is different than the way we used to 
handle business, where it was on a text-by-text basis. The 
majority of those publishers, by the way, are not Islamic 
publishers. They are primarily white supremacist. So we have 
tried to take a broader approach in terms of materials coming 
in.
    We also work with our partners on what is coming in, and 
the Qur'an that was discussed earlier was a piece of literature 
that we received notification from the FBI had some issues, and 
we removed that particular version of the Noble Qur'an from all 
of our libraries. So it is a cooperative effort across our law 
enforcement and other corrections partners, also.
    Chairman Collins. When you find extremist literature like 
this, whether it is Islamic or Christian or any other kind of 
extremist literature, do you share that information with State 
and local correctional facilities? The Federal Government has 
the resources and the knowledge to do this kind of review. 
Probably a large State like California or New York does, as 
well. But smaller States simply don't have the expertise or the 
resources. So do you maintain a list of extremist literature 
that can be shared with your State and local counterparts?
    Dr. Vanyur. We have not. We do a lot of sharing with the 
State and local counterparts, particularly through the National 
Institute of Corrections, which is a wing of the Bureau of 
Prisons that deals specifically with State and locals, but I 
don't believe we have actually put on their website or put out 
to the States specific publications that we have eliminated.
    Chairman Collins. I think that would be something for you 
to look at. When I think of a State like mine, a small State 
with very limited resources with a population that has very few 
Muslims, for example, it would be extremely difficult, I think, 
for prison officials in my State to make that kind of 
assessment. But it would also be very helpful regardless of 
whether it is religious in nature or not for States like Maine 
to have a list of extremist literature to be on the lookout 
for. It also, I think, would give more comfort to State and 
local officials that they are making the right decision in what 
is admittedly a very difficult area because of concerns of 
protecting civil liberties and religious freedoms. So that is 
something I would encourage you to pursue.
    Dr. Vanyur. We will, Senator. I concur.
    Chairman Collins. Mr. Van Duyn, I want to turn to the JIS 
case out of California that I discussed in my opening 
statement. In the indictment, there is mention of a document or 
protocol that Kevin James clandestinely distributed, and this 
document apparently set forth his bizarre teachings about Islam 
including ``justification for killing non-believers.'' Do you 
know how he was able to distribute that document?
    Mr. Van Duyn. I don't have the specifics on just 
mechanically how it was done. My sense is he did up copies that 
he handed out. I know he gathered some of his materials from 
the Internet. That is where he got some of the ideas. Then he 
pulled it together. Some of the materials were hand-written, so 
he would have had to make copies and then basically pass them 
around. But I would have to check on the actual mechanics.
    Chairman Collins. Mr. Ali, do you happen to know how he was 
able to distribute that information?
    Mr. Ali. The description that Mr. Van Duyn made is fairly 
accurate, that some of this material was obtained through the 
open source, through Internet, through information that he 
brought into the prison system. Some of it was his own sort of 
musings or writings that he wrote down by hand and then he put 
together his own manual and then apparently just passed that 
out by hand. I don't think it went out beyond the hard copy 
dissemination.
    When we were in California earlier this year, actually, in 
Sacramento, we sat through a presentation with prison 
officials, and they showed via PowerPoint slides certain pages 
of the manual that he had written, and it is fairly alarming 
stuff just from the sense of the ideas that were being shared 
within this small group of individuals, and there are other 
groups active just like that within the prison systems there.
    Chairman Collins. Mr. Van Duyn, do you know whether copies 
of these documents that Kevin James circulated were found in 
California prisons?
    Mr. Van Duyn. Yes, they were.
    Chairman Collins. Do you know how many?
    Mr. Van Duyn. I know the materials were found in his cell, 
and then some other materials were found in other places 
because I know after the arrest--that you refer to from the 
cell phone, it led them to the house, and some of the materials 
were found there, and then subsequently to him, but I don't 
know the specifics of where they were all found.
    Chairman Collins. I know that the FBI led the investigation 
that eventually traced this cell phone back to the prison to 
the plot to Kevin James. Prior to what really was a lucky break 
of one of the perpetrators happening to drop a cell phone, was 
there any knowledge that you are aware of among the FBI or 
prison officials or State and local officials that such a plot 
had been hatched in prison?
    Mr. Van Duyn. Before the incident of the arrest, the fact 
of the plot was not known. The group, however, was known. It 
was being treated mainly as a prison gang prior to the arrest 
for the robberies. It was on the discoveries emanating from the 
arrest after the robberies that then led people to the plot. 
That was the first knowledge of the plot per se.
    Chairman Collins. I guess that worries me because here you 
have a group of inmates led by a charismatic leader apparently 
who was able to propagate his perverted version of Islam and 
incite inmates to violence once they were released, and yet it 
seems to have been under the radar, something that was not 
detected. What do you think prison officials could have done to 
be more aware of what was essentially homegrown terrorists in 
their midst?
    Mr. Van Duyn. I think many of the measures that Dr. Vanyur 
already discussed in terms of better monitoring of meetings, of 
activities, of literature, material that were there. In 
particular, I think monitoring of meetings so that there are 
not meetings that are being held without officials present. I 
think, just in general, better monitoring and better 
intelligence gathering in general inside the prisons, and I 
think the case of the JIS, I mean, really pointed that up, and 
also because that was a State prison, it also raises the issue 
of we need to have very good communications between all levels 
in the correctional systems.
    Chairman Collins. Mr. Ali, I note that you indicated that 
DHS is in the initial stages of its work on the radicalization 
issue. In your testimony, you referred to nodes where 
radicalization could take place, of which prisons are one. Do 
you have yet any sense of how significant a node prisons are 
for radicalization versus radical mosques or Internet chat 
sites, etc., or do you not have enough information yet?
    Mr. Ali. Madam Chairman, that is a great question. We are 
trying to get to that through this research, and by doing it 
with the regional approach of looking at States or different 
regions, we are trying to drill down to two or three levels 
below the national level perspective to get that more enhanced 
perspective. So you can make an argument that if you looked at 
what is going on in California right now, potentially within 
just California specifically, prisons and some of the activity 
within some of the prisons there seems to be of more concern or 
greater interest--or there is more activity in that particular 
node than potentially prisons in Illinois, where other nodes 
may have a greater impact. So that is the comparative look we 
are trying to develop.
    At a broad macro level throughout the country, though, I 
think we could say, at least from our initial perspective, that 
prisons don't seem to have the same level of concern that we 
have from DHS that other nodes have in terms of a conduit in 
which radical ideas are either developed or passed or shared, 
not to say that they are not of concern, but in terms of a 
priority scale at a national level, they seem to be a little 
bit lower down. But certainly we are focusing attention on 
them.
    Chairman Collins. That is something that I think we need to 
get a better understanding of, is how radicalization and 
recruitment occurs not only in prisons, but elsewhere in our 
society. If you look at the attempted terrorist or actual 
terrorist attacks that have occurred worldwide since September 
11, you see that more and more, they are being done by 
homegrown terrorists. All of the border security in the world 
is not going to help to address the problem of radicalization 
within our borders. That is why we have undertaken this 
investigation, starting with looking at prisons where, at the 
risk of using a bad pun, you do have a captive audience for 
radicalization and you have a population that has a propensity 
to violence and alienation already.
    So my hope is that we can continue to work with you, but I 
would also encourage you to work with your State and local 
counterparts. Frankly, I think the Federal Government is 
starting to move on this issue, has a good understanding of it, 
and is expanding its expertise with each passing day. But I am 
really worried about our State prisons, which is, after all, 
where most inmates are incarcerated. It is overwhelmingly at 
the State level. I worry that States lack the kinds of programs 
that you have talked about, the ability to screen individuals 
or literature, and the intelligence sharing of information that 
is just vital to addressing this problem.
    So I salute you all for the good work that you are doing, 
but I really encourage you to reach out to the Muslim community 
for help and to also reach out to your State and local 
counterparts so that we can share information about specific 
individuals, about radical literature, whether Islamic or 
otherwise, and about the techniques, such as the monitoring of 
religious services, that you have found to be valuable at the 
Federal level. I really think we need to have a major outreach 
effort in this area.
    I hope you will continue to keep in touch with the 
Committee and to work closely with us as you pursue your 
investigations and work in this area, and I want to thank you 
all for sharing your knowledge and expertise and insights with 
the Committee today.
    I want to again stress that our concern is not with inmates 
converting to Islam. In many cases, that can be exactly what a 
prisoner needed to put his or her life back on the right path, 
to shun violence and future criminal activity. What I am 
talking about is the extremist conversion, the radicalization 
of Islam that is adopted by some inmates, and in some cases, 
without any knowledge of prison authorities that this is going 
on. Obviously, we have seen that prisons for decades have been 
fertile grounds for radicalization in other areas and for the 
creation of gangs. So this is a further evolution of that 
trend, but indeed one that raises a great deal of concern about 
the potential threat to our homeland security.
    Again, thank you all for working with us, and we will be 
continuing to investigate this area.
    The hearing record will remain open for 15 days for the 
submission of any additional questions. I know many of my 
colleagues were tied up at other hearings today. That doesn't 
reflect a lack of interest in the subject, and I think you can 
probably expect both panels will receive some additional 
questions for the record.
    Thank you very much for your participation. I also want to 
thank the members of my staff, particularly Jen Boone and David 
Porter, who have worked hard on this issue.
    The Committee hearing is now adjourned.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Thanks, Madam Chairman, and thank you for holding this hearing on a 
subject of growing interest and importance to our war against terror 
here at home. The idea of homegrown terrorism--terrorism that is born 
not deep in the Hindu Kush or in a desert cave but right here among 
us--is a frightening concept to most Americans. It eliminates the 
buffer of oceans and continents and even tightened immigration controls 
that have kept our neighborhoods and institutions relatively free of 
terrorist ideology. Home grown terrorism is now a grave enough concern 
that we must consider whether to focus more attention and resources 
toward it. I hope this hearing helps us to sort that out.
    Experience tells us that we need to consider and then work together 
to prevent the next terrorist attack, not the last one. Since September 
11, we've spent billions of dollars to improve airline security and 
prevent terrorists and their tools of destruction from entering the 
country and we need to do more. But we must also be on the lookout for 
ruthlessness we have not yet experienced--terrorism spawned right here 
among us.
    The men who plotted and carried out last year's bombings of the 
London Underground, for example, were converted to terrorist ideology 
in their home country, the United Kingdom--just as the perpetrators of 
deadly rail explosions in Madrid and Mumbai might have been homegrown.
    We will hear from our witnesses this morning of the developing 
concern that American prisons are potential breeding grounds for 
terrorism in this country. I say--potential--because there is no 
evidence to suggest U.S. prisons are churning out terrorists--yet. But 
nor can we afford to wait until production is in full swing before we 
address the conditions that could lead to that occurring. The missed 
opportunities leading up to the 9-11 attacks have been chronicled at 
length. So, again, I thank the Chairman for holding this hearing today 
so we can hear about a potential problem that can no longer be ignored.
    The study we will hear about today shows that the American prison 
systems--Federal, State, and local--are environments that are 
permissive to the proliferation of radical ideologies. That 
permissiveness, quite naturally, is exploited by those wishing to fill 
out their ranks and win new recruits to the cause. The study's 
authors--Mr. Cilluffo and Dr. Saathoff, together with their formidable 
team of experts from across the professional spectrum--have done 
outstanding work to identify potential loopholes that could be 
exploited by radical groups and to provide thoughtful, well-reasoned 
ways to close some of those loopholes. Our final witness on the first 
panel is someone who actually did exploit those loopholes. Mr. 
Gartenstein-Ross joined Al Haramain, a radical organization with 
terrorist ties. He was personally responsible for outreach to the 
prison populations in the United States and sent thousands of pieces of 
radical literature to prisoners. And although Al Haramain has been shut 
down, in large part due to Mr. Gartenstein-Ross's cooperation with the 
FBI, there could be other similar groups still operating out there.
    The fundamental questions we must ask are what would cause a person 
to convert to a radical ideology condoning terrorism? What is the 
process by which a prisoner might convert to such an ideology? What are 
the conditions under which a conversion might take place? And what 
controls can we put into place to curtail such conversions? Dr. 
Saathoff, with his extensive experience in psychiatric evaluations of 
prisoners, will offer a glimpse into the behavioral science behind 
radicalization, and what factors might make the prison environment 
conducive to the recruitment of terrorists. And Mr. Cilluffo, who has 
lent his tremendous expertise in Homeland Security policy to this 
study, will offer insights on how the government, across levels and 
jurisdictions, can begin to close gaps in the system.
    The value of spirituality for inmates requires that a range of 
religious services be available. Our adherence to the principle of 
freedom of worship, in fact, allows for any inmate to request services 
in the religion of his or her choice. And since Islam is the second 
most widespread religion in the world, it is understandable and proper 
that it be represented proportionately among the chaplains employed by 
the prison system and among those who contract or volunteer to provide 
religious services to inmates.
    Unfortunately, the number of qualified Islamic chaplains, or Imams, 
is insufficient. Although over 80 percent of religious conversions in 
prison are to some form of Islam, only ten of the 200 chaplains in the 
Federal system are devoted to Islam. This staggeringly disproportionate 
number cannot possibly fulfill the need for expertise in cultural 
traditions and linguistics--not to mention offering a meaningful 
presence--in a system with a total population of nearly 200,000. The 
report states that radical prison groups have been able to use Arabic 
as a code for passing secret information. A greater corps of educated 
and certified Muslim chaplains and expert staff, with the ability to 
detect dangerous materials, teachings, and communications, seems key to 
controlling radicalization.
    As we will hear, radical Islamic literature may contain incendiary 
language against Jews, Christians, and others who are considered non-
believers. Does that mean that extreme views, whether religious or 
political, naturally imply a proclivity toward violence? I don't think 
so. There are no restrictions on thought in this nation. Freedom of 
ideas, freedom of expression, and freedom of religion are among the 
most cherished birthrights of our democracy. The First Amendment does 
not stop at the prison wall.
    But controls must exist to prevent the freedom of individual 
thought from devolving into a hateful ideology that promotes or incites 
violence. While it may be legal to hold such beliefs, it is decidedly 
illegal to act on them. Within the confines of correctional facilities, 
where a higher requirement for order exists, the interest of safety and 
security demands that these beliefs be discouraged.
    I hope that our second panel of witnesses can tell us today what 
controls are currently in effect in Federal prisons to stem the spread 
of hateful ideology and what additional controls should be instituted 
to halt recruitment and stop the radicalization process before it is 
manifested in terrorism. I also hope that this panel will speak to 
Federal efforts and plans to increase information sharing--a critical 
element in controlling the spread of radical ideology. The task force 
report starkly describes the challenges to sharing information between 
institutions, jurisdictions, levels of governments, and agencies in the 
correctional system. Dangerous religious service providers may move 
freely between jurisdictions, radical and charismatic inmates may be 
transferred untracked between prisons, and intelligence gained at the 
Federal level lacks a sufficient means for dissemination to State and 
local levels. The State of California has taken admirable strides in 
forming its Prison Radicalization Working Group, which draws together 
officials from all levels of government in monthly dialogues to address 
the problem. I hope similar efforts take root across the nation, with 
Federal leadership to assist in the sharing of information that is so 
essential in improving homeland security.
    I thank both panels of witnesses for taking the time to share their 
wisdom and experience today and I look forward to their testimony. The 
topic is an important one: Our dialogue today, and even more 
importantly, the dialogues that I hope will ensue, can only serve to 
increase our awareness and active vigilance against an ever-changing 
enemy in the war on terror.
[GRAPHIC] [TIFF OMITTED] 30597.001

[GRAPHIC] [TIFF OMITTED] 30597.002

[GRAPHIC] [TIFF OMITTED] 30597.003

[GRAPHIC] [TIFF OMITTED] 30597.004

[GRAPHIC] [TIFF OMITTED] 30597.005

[GRAPHIC] [TIFF OMITTED] 30597.006

[GRAPHIC] [TIFF OMITTED] 30597.007

[GRAPHIC] [TIFF OMITTED] 30597.008

[GRAPHIC] [TIFF OMITTED] 30597.009

[GRAPHIC] [TIFF OMITTED] 30597.010

[GRAPHIC] [TIFF OMITTED] 30597.011

[GRAPHIC] [TIFF OMITTED] 30597.012

[GRAPHIC] [TIFF OMITTED] 30597.013

[GRAPHIC] [TIFF OMITTED] 30597.014

[GRAPHIC] [TIFF OMITTED] 30597.015

[GRAPHIC] [TIFF OMITTED] 30597.016

[GRAPHIC] [TIFF OMITTED] 30597.017

[GRAPHIC] [TIFF OMITTED] 30597.018

[GRAPHIC] [TIFF OMITTED] 30597.019

[GRAPHIC] [TIFF OMITTED] 30597.020

[GRAPHIC] [TIFF OMITTED] 30597.021

[GRAPHIC] [TIFF OMITTED] 30597.022

[GRAPHIC] [TIFF OMITTED] 30597.023

[GRAPHIC] [TIFF OMITTED] 30597.024

[GRAPHIC] [TIFF OMITTED] 30597.025

[GRAPHIC] [TIFF OMITTED] 30597.026

[GRAPHIC] [TIFF OMITTED] 30597.027

[GRAPHIC] [TIFF OMITTED] 30597.028

[GRAPHIC] [TIFF OMITTED] 30597.029

[GRAPHIC] [TIFF OMITTED] 30597.030

[GRAPHIC] [TIFF OMITTED] 30597.031

[GRAPHIC] [TIFF OMITTED] 30597.032

[GRAPHIC] [TIFF OMITTED] 30597.033

[GRAPHIC] [TIFF OMITTED] 30597.034

[GRAPHIC] [TIFF OMITTED] 30597.035

[GRAPHIC] [TIFF OMITTED] 30597.036

[GRAPHIC] [TIFF OMITTED] 30597.037

[GRAPHIC] [TIFF OMITTED] 30597.038

[GRAPHIC] [TIFF OMITTED] 30597.039

[GRAPHIC] [TIFF OMITTED] 30597.040

[GRAPHIC] [TIFF OMITTED] 30597.041

[GRAPHIC] [TIFF OMITTED] 30597.042

[GRAPHIC] [TIFF OMITTED] 30597.043

[GRAPHIC] [TIFF OMITTED] 30597.044

[GRAPHIC] [TIFF OMITTED] 30597.045

[GRAPHIC] [TIFF OMITTED] 30597.046

[GRAPHIC] [TIFF OMITTED] 30597.047

[GRAPHIC] [TIFF OMITTED] 30597.048

[GRAPHIC] [TIFF OMITTED] 30597.049

[GRAPHIC] [TIFF OMITTED] 30597.050

[GRAPHIC] [TIFF OMITTED] 30597.051

[GRAPHIC] [TIFF OMITTED] 30597.052

[GRAPHIC] [TIFF OMITTED] 30597.053

[GRAPHIC] [TIFF OMITTED] 30597.054

[GRAPHIC] [TIFF OMITTED] 30597.055

[GRAPHIC] [TIFF OMITTED] 30597.056

[GRAPHIC] [TIFF OMITTED] 30597.057

[GRAPHIC] [TIFF OMITTED] 30597.058

[GRAPHIC] [TIFF OMITTED] 30597.059

[GRAPHIC] [TIFF OMITTED] 30597.060

[GRAPHIC] [TIFF OMITTED] 30597.061

[GRAPHIC] [TIFF OMITTED] 30597.062

[GRAPHIC] [TIFF OMITTED] 30597.063

[GRAPHIC] [TIFF OMITTED] 30597.064

[GRAPHIC] [TIFF OMITTED] 30597.065

[GRAPHIC] [TIFF OMITTED] 30597.066

[GRAPHIC] [TIFF OMITTED] 30597.067

[GRAPHIC] [TIFF OMITTED] 30597.068

[GRAPHIC] [TIFF OMITTED] 30597.069

[GRAPHIC] [TIFF OMITTED] 30597.070

[GRAPHIC] [TIFF OMITTED] 30597.071

[GRAPHIC] [TIFF OMITTED] 30597.072

[GRAPHIC] [TIFF OMITTED] 30597.073

[GRAPHIC] [TIFF OMITTED] 30597.074

[GRAPHIC] [TIFF OMITTED] 30597.075

[GRAPHIC] [TIFF OMITTED] 30597.076

[GRAPHIC] [TIFF OMITTED] 30597.077

[GRAPHIC] [TIFF OMITTED] 30597.078

[GRAPHIC] [TIFF OMITTED] 30597.079

[GRAPHIC] [TIFF OMITTED] 30597.080

[GRAPHIC] [TIFF OMITTED] 30597.081

[GRAPHIC] [TIFF OMITTED] 30597.082

[GRAPHIC] [TIFF OMITTED] 30597.083

[GRAPHIC] [TIFF OMITTED] 30597.084

[GRAPHIC] [TIFF OMITTED] 30597.085

[GRAPHIC] [TIFF OMITTED] 30597.086

[GRAPHIC] [TIFF OMITTED] 30597.087

[GRAPHIC] [TIFF OMITTED] 30597.088

[GRAPHIC] [TIFF OMITTED] 30597.089

[GRAPHIC] [TIFF OMITTED] 30597.090

[GRAPHIC] [TIFF OMITTED] 30597.091

[GRAPHIC] [TIFF OMITTED] 30597.092

[GRAPHIC] [TIFF OMITTED] 30597.093

[GRAPHIC] [TIFF OMITTED] 30597.094

[GRAPHIC] [TIFF OMITTED] 30597.095

[GRAPHIC] [TIFF OMITTED] 30597.096

[GRAPHIC] [TIFF OMITTED] 30597.097

[GRAPHIC] [TIFF OMITTED] 30597.098

[GRAPHIC] [TIFF OMITTED] 30597.099

[GRAPHIC] [TIFF OMITTED] 30597.100

[GRAPHIC] [TIFF OMITTED] 30597.101

[GRAPHIC] [TIFF OMITTED] 30597.102

[GRAPHIC] [TIFF OMITTED] 30597.103

[GRAPHIC] [TIFF OMITTED] 30597.104

[GRAPHIC] [TIFF OMITTED] 30597.105

[GRAPHIC] [TIFF OMITTED] 30597.106

[GRAPHIC] [TIFF OMITTED] 30597.107

[GRAPHIC] [TIFF OMITTED] 30597.108

[GRAPHIC] [TIFF OMITTED] 30597.109

[GRAPHIC] [TIFF OMITTED] 30597.110

[GRAPHIC] [TIFF OMITTED] 30597.111

[GRAPHIC] [TIFF OMITTED] 30597.112

[GRAPHIC] [TIFF OMITTED] 30597.113

[GRAPHIC] [TIFF OMITTED] 30597.114

[GRAPHIC] [TIFF OMITTED] 30597.115

[GRAPHIC] [TIFF OMITTED] 30597.116

[GRAPHIC] [TIFF OMITTED] 30597.117

[GRAPHIC] [TIFF OMITTED] 30597.118

[GRAPHIC] [TIFF OMITTED] 30597.119

[GRAPHIC] [TIFF OMITTED] 30597.120

[GRAPHIC] [TIFF OMITTED] 30597.121

[GRAPHIC] [TIFF OMITTED] 30597.122

[GRAPHIC] [TIFF OMITTED] 30597.123

                                 <all>

</pre></body></html>
